<html>
<title> - NOMINATION OF JANE HOLL LUTE</title>
<body><pre>[Senate Hearing 111-979]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-979
 
                      NOMINATION OF JANE HOLL LUTE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

NOMINATION OF JANE HOLL LUTE TO BE DEPUTY SECRETARY, U.S. DEPARTMENT OF 
                           HOMELAND SECURITY

                             MARCH 26, 2009

                               ----------                              

         Available via the World Wide Web: http://www.fdsys.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                   NOMINATION OF JANE HOLL LUTE--2009




                                                        S. Hrg. 111-979

                      NOMINATION OF JANE HOLL LUTE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

NOMINATION OF JANE HOLL LUTE TO BE DEPUTY SECRETARY, U.S. DEPARTMENT OF 
                           HOMELAND SECURITY

                             MARCH 26, 2009

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
50-383                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2c5d2cde2c1d7d1d6cac7ced28cc1cdcf8c">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
              Jason M. Yanussi, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                   Eric B. Cho, Minority GSA Detailee
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Akaka................................................    14
    Senator Coburn...............................................    17
    Senator Voinovich............................................    19
    Senator Burris...............................................    21
    Senator Landrieu.............................................    23

                               WITNESSES
                        Thursday, March 26, 2009

Hon. Michael R. Bloomberg, Mayor, City of New York, New York.....     5
Jane Holl Lute to be Deputy Secretary, U.S. Department of 
  Homeland Security..............................................     7

                     Alphabetical List of Witnesses

Bloomberg, Hon. Michael R.:
    Testimony....................................................     5
Lute, Jane Holl:
    Testimony....................................................     7
    Prepared statement...........................................    39
    Biographical and financial information.......................    43
    Responses to pre-hearing questions...........................    58
    Responses to pre-hearing questions for the Record from:
      Senator Collins............................................   165
      Senator Coburn.............................................   179
    Letter from the Office of Government Ethics..................   194
    Responses to post-hearing questions for the Record from:
      Senator Collins with an attachment.........................   195
      Senator Coburn with attachments............................   229
      Senator Voinovich with an attachment.......................   339
      Senator Graham.............................................   428

                                APPENDIX

Letters of Support from:
    Robert M. Appleton, Former Chairman, United Nations 
      Procurement Task Force.....................................   430
    Leroy D. Baca, Sheriff, County of Los Angeles, California....   432
    Christopher B. Burnham, Former Under Secretary-General of the 
      United Nations and Former Chief Financial Officer and 
      Assistant Secretary of State...............................   434
    Lee H. Hamilton, President and Director, Woodrow Wilson 
      International Center for Scholars..........................   436
    Chief Larry J. Grorud, President, International Association 
      of Fire Chiefs.............................................   437
    Robert L. Davis, Chief of Police, San Jose, California, and 
      Vice President, Major Cities Chiefs Association............   438
    Susan McLurg, Chairman, United Nations Advisory Committee on 
      Administrative and Budgetary Questions.....................   439
    David A. Goad, Sheriff and President, and Aaron D. Kennard, 
      Executive Director, National Sheriffs' Association.........   441
    Nancy J. Dragani, President, National Emergency Management 
      Association................................................   443
    HRH Prince Zeid Raad Al Hussein, Ambassador of Jordan........   444
    Jasmine Whitbread, Chief Executive, Save the Children UK.....   446
    Mary Fetchet, Founding Director, and Frank Fetchet, Director, 
      Voices of September 11th...................................   448
OIOS reports submitted for the Record by Senator Coburn..........   449


                      NOMINATION OF JANE HOLL LUTE

                              ----------                              


                        THURSDAY, MARCH 26, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Landrieu, Burris, 
Collins, Coburn, and Voinovich.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and welcome to the 
nomination hearing of Jane Holl Lute to be Deputy Secretary of 
the Department of Homeland Security (DHS). We welcome you, Ms. 
Lute, and there is a familiar looking gentleman behind you in 
uniform. I know your husband, General Doug Lute. The two of you 
have really given extraordinary service to our country, and I 
thank you both very much for that. I am also glad to welcome 
the other people who are behind you and here to support you.
    You have extraordinary credentials, really a remarkable 
professional history and very broad national security and 
management experience. It is really hard to imagine somebody, 
in my opinion, better suited to become Deputy Secretary of 
Homeland Security than you are based on the range of 
experiences you have had.
    You have earned five degrees, including a Ph.D. and a law 
degree. You have had a distinguished career in the military, 
served as the European specialist at the National Security 
Council during the first Bush and Clinton Administrations, and 
spent 3 years as a professor at West Point. That is quite a 
record.
    As Assistant Secretary-General of the United Nations (U.N.) 
for the past several years, you have managed a large and 
complex Peacekeeping force with responsibility for hundreds of 
thousands of military and civilian personnel in over 30 
countries, including real hot spots, trouble spots, such as 
Kosovo, the Congo, and Darfur. This was no small 
accomplishment. Your leadership has helped to ensure the 
security and welfare of countless people around the globe.
    Managing the Department of Homeland Security, as you well 
know, is also a demanding job which requires a strong, steady, 
and smart hand, heart, and head. The Deputy Secretary position 
carries with it diverse responsibilities, ranging from 
overseeing efforts to prevent and, if necessary, respond to a 
weapon of mass destruction (WMD) attack to ensuring on an 
entirely different level that the employees of this Department 
have adequate office space in which to serve our country.
    As you know, the Department of Homeland Security has worked 
hard, sometimes struggled, to gain solid footing over the 
course of its short life. But I believe, and I am happy to 
note, that each year, it has become stronger, and I do not 
think there is any question that the country is safer as a 
result of the Department's efforts. But the Department is still 
not where we want and need it to be, and I am confident that 
your leadership will help us get there.
    I am going to ask that the rest of my remarks be put in the 
record as if read and call now on our distinguished Ranking 
Member, Senator Collins.
    [The prepared statement of Chairman Lieberman follows:]

                PREPARED STATEMENT OF SENATOR LIEBERMAN

    Good morning and welcome to the nomination hearing of Jane Holl 
Lute to be Deputy Secretary of the Department of Homeland Security. 
Welcome, Mrs. Lute. We're happy to have you before us today.
    Mrs. Lute, you have outstanding credentials, a remarkable 
professional history, and broad national security and management 
experience, all of which is more than ample training for the position 
to which you have been nominated.
    You have earned five educational degrees--including a Ph.D. and a 
law degree--have had a distinguished career in the military, served as 
the European specialist at the National Security Council during the 
first Bush and Clinton Administrations, and spent 3 years as a 
professor at West Point.
    As Assistant Secretary-General of the United Nations for the past 
several years, you have managed a large and complex Peacekeeping 
workforce, with responsibility for hundreds of thousands of military 
and civilian personnel in over 30 countries, including hotspots such as 
Kosovo, the Congo, and Darfur, to name just a few. This was no small 
accomplishment. Your leadership has helped to ensure the security and 
welfare of people around the globe living in unaccommodating and 
hostile circumstances.
    Managing the Department of Homeland Security is also a demanding 
job, which, much like the U.N., requires a smart and steady hand. The 
Deputy Secretary post carries with it diverse responsibilities that 
range from overseeing preparations to respond to a nuclear terrorist 
attack to ensuring that DHS employees have adequate office space.
    As you know, the Department of Homeland Security has struggled to 
gain solid footing over the course of its short life. Each year it 
becomes stronger, I am happy to note. And I do not think there is any 
question that the country is safer as a result of the Department's 
efforts.
    But the Department has a difficult and varied mission and its work 
is central to the security of all Americans. So, we must continue to 
press forward to improve upon its capabilities.
    I am working to draft the Senate's first authorization bill for the 
Department as a means of laying out what I believe should be its 
priorities and to make the Department more efficient and effective in 
its missions. Needless to say, we will be seeking input from the 
Administration.
    I do want to take a moment to mention a couple of my greatest 
concerns. One of the biggest problems the Department faces is its 
management of acquisitions. Some of the Department's largest and most 
troubled acquisition programs--Deepwater, SBINet, radiation detection 
portal monitors--need stronger oversight and more decisive leadership 
than they have gotten in the past.
    Furthermore, the Department's heavy reliance on contractors to 
perform basic services raises serious questions about whether DHS is 
building sufficient internal capacity and institutional knowledge. 
Right now, DHS still has insufficient capacity to develop requirements 
and evaluate the technical feasibility of contractors' proposals. I 
look forward to hearing your plans for improvement in this area.
    The Department's new initiative to strengthen the security of 
Federal information technology systems--the Comprehensive National 
Cybersecurity Initiative--is another project critical to the security 
of the American people that I have been overseeing with great interest. 
Given the Administration's emphasis on transparency, I hope you will 
encourage increased openness and information sharing with Congress, the 
private sector, and the American public on this key project to ensure 
that it is a success.
    Clearly, as the Administration's announcement and the Secretary's 
travel schedule this week indicate, southern border security has become 
a central focus for the Department. I intend to request additional 
resources and personnel for Customs and Border Protection and 
Immigration and Customs Enforcement to help stem the flow of drugs and 
people moving north into the United States and guns and money moving 
south into Mexico. I look forward to a close collaboration with the 
Department in this area.
    As you know, there are many other challenges facing the Department 
that must be met and conquered if DHS is to succeed in its ultimate 
mission of protecting the Nation from terrorism and natural disasters. 
This Committee has always worked cooperatively with the Department and 
will continue to do so to ensure its success.
    If confirmed, you will play a large part in setting the Department 
on course to overcome these challenges. Again, thank you for your many 
years of service, and I hope you will serve your Nation for many more.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. I want to join 
the Chairman in welcoming Jane Lute to our Committee today as 
we consider her nomination to be Deputy Secretary of the 
Department of Homeland Security. It is certainly a credit to 
her that Mayor Bloomberg has taken the time from his busy 
schedule to travel to Washington to introduce her today, and it 
is certainly a testament to her that she has such strong 
support from our Nation's leading first responder 
organizations.
    The Deputy Secretary of DHS wields considerable power over 
the day-to-day operations of the Department. The Deputy has 
historically played an important role in the management of the 
Department, from acquisition policy to personnel management. 
These responsibilities are in addition to the many other 
challenges associated with the operation of a Department with 
some 210,000 employees and a mission to secure our borders, to 
protect our Nation's critical infrastructure, and to help 
prevent, prepare for, and respond to all hazards.
    Last year alone, the Department spent more than $14 billion 
in contracts for goods and services, and the Department has 
encountered significant challenges in managing those contracts, 
particularly in the area of information technology. The 
Chairman and I, along with other Members of this Committee, 
have worked hard to strengthen and reform Federal contracting 
laws, but strong management is also required.
    Ms. Lute has experience dealing with the troubled 
acquisition process at the United Nations. I will be asking her 
this morning about that experience and in particular whether a 
non-competitive contract award could have been avoided through 
better planning.
    I would note that Ms. Lute does have extraordinary 
experience in resolving interagency conflicts. DHS gets 
involved in those types of conflicts all of the time, and I 
look forward to discussing that issue with her, as well.
    The protection of our Nation's critical infrastructure, the 
reauthorization of port security and chemical facilities 
security laws, and emerging threats will also be important 
priorities for the next Deputy Secretary.
    I am going to follow the Chairman's lead and ask that my 
entire statement be entered into the record so that we can hear 
from the Mayor of New York City, who I know has a busy 
schedule. So, Mr. Chairman, I am going to follow your lead, but 
I do look forward to questioning our witness today for this 
very important post.
    [The prepared statement of Senator Collins follows:]

                 PREPARED STATEMENT OF SENATOR COLLINS

    I join the Chairman in welcoming Jane Holl Lute to our Committee 
today as we consider her nomination to be Deputy Secretary of the 
Department of Homeland Security. It is a credit to her that Mayor 
Bloomberg has taken the time to introduce her today and that she has 
strong support from our Nation's first responder organizations.
    The Deputy Secretary of DHS wields considerable power over the day-
to-day operations of the Department. The Deputy has historically played 
an important role in the management of the Department--from acquisition 
policy to personnel management. These management responsibilities are 
in addition to many other challenges associated with the operation of a 
Department with 210,000 employees and the mission to secure our 
borders, protect our Nation's critical infrastructure, and to help 
prevent, prepare for, and respond to all hazards.
    Last year alone, the Department spent more than $14 billion in 
contracts for goods and services. The Department has faced significant 
challenges in many of its major acquisition programs, particularly in 
information technology programs. These acquisitions will need immediate 
and frequent attention from the Deputy Secretary to get them on track.
    Senator Lieberman and I have been strong advocates for reforms that 
have resulted in greater competition, accountability, and transparency 
to Federal contracting. Strong management, however, is also required.
    Ms. Lute has experience dealing with a troubled acquisition 
process, such as the intensely criticized one at the United Nations. I 
will be asking her about this experience, including whether a non-
competitive award requested by the U.N. Department of Field Support 
could have been avoided through better planning.
    From her time at the National Security Council and the U.N., Ms. 
Lute also has experience resolving interagency conflicts within the 
U.S. Government and disputes between foreign governments and other 
stakeholders. If she is confirmed, Ms. Lute will need all these skills, 
and more, as she attempts to forge consensus and close collaboration 
among the Department's components. She will have to ensure that the 
Department's views and equities are forcefully represented in 
interagency negotiations with the dozens of departments and agencies 
that play a role in our Nation's homeland security efforts.
    The protection of our Nation's critical infrastructure from 
emerging threats will also be an important priority for the next Deputy 
Secretary. Among the significant challenges in this area are the need 
to enhance security at the Nation's biological laboratories and 
throughout our cyber-infrastructure. Laws that I co-authored to improve 
the security of seaports and chemical facilities will need to be 
reauthorized during this Congress.
     The next Deputy Secretary will also play a key role in the 
Department's emergency preparedness efforts. The Deputy must have a 
close collaborative relationship with the FEMA Administrator, so that 
FEMA continues to work well within DHS to ensure that as a Nation we 
are prepared for the next major disaster, whether natural or man-made. 
Planning, training, and exercising are important areas in which DHS has 
made much progress but still has more work to do. The Deputy Secretary 
must also ensure that its many partners at the State and local level 
and in the private sector are fully involved with DHS initiatives.
    I look forward to working with the Secretary and the next Deputy 
Secretary to continue to strengthen the Department.

    Chairman Lieberman. Thanks very much, Senator Collins.
    It really is a great honor to welcome Mayor Bloomberg here. 
It is most unusual and, I think, speaks to the extraordinary 
qualities of the nominee.
    The term ``great American'' is tossed around here a lot, 
but in my opinion, Mayor Bloomberg really is a great American.
    Mr. Bloomberg. My mother agrees with you. [Laughter.]
    Chairman Lieberman. Yes. Actually, she wrote my 
introduction. [Laughter.]
    Chairman Lieberman. Why? Because he speaks to all the 
opportunity that America offers. He has obviously been an 
extraordinary success as a result of very hard work and great 
creativity, and he then has given back enormously to our 
country, both in terms of the fruits of his success and an 
extraordinary history of philanthropy, but also in taking on 
the tough job of being Mayor of New York City and doing it with 
great success, to the benefit of the city.
    I am proud to call him a friend. I am honored to introduce 
him now. I hope I do not offend anybody else if I introduce you 
as America's Mayor.

  TESTIMONY OF HON. MICHAEL R. BLOOMBERG, MAYOR, CITY OF NEW 
                         YORK, NEW YORK

    Mr. Bloomberg. You are nice to say so. Thank you, Senator. 
Mr. Chairman, Ranking Member Collins, Senator Akaka, Senator 
Coburn, Senator Voinovich, thank you for having me and good 
morning.
    Usually these days, it seems like mayors and other 
executives come before Congress asking for something. Today, I 
am pleased to actually be bringing you something instead, the 
President's sterling nominee for Deputy Secretary of the U.S. 
Department of Homeland Security, Jane Holl Lute.
    With more than 30 years of experience, ranging from the 
highest levels of government to the heart of international 
conflict, Ms. Lute really does have a deep understanding of 
what it takes to secure our homeland and protect us against 
terrorism. I have long known of Ms. Lute's reputation and have 
come to know her personally in the last few years. During that 
time, it has become abundantly clear to me that she really is a 
dedicated public servant, a skilled manager, and a visionary 
thinker, and she is precisely the kind of leader that I think 
we need at the Department of Homeland Security.
    I am sure Ms. Lute's background is well known to Members of 
this Committee. She began her career in public service as an 
officer in the U.S. Army and was deployed to the Gulf during 
Operation Desert Storm, where she served on Central Command 
staff. She went on to serve two Presidents at the National 
Security Council, and she more recently served as the Assistant 
Secretary-General of the United Nations.
    At United Nations Peacekeeping, she ran operations support 
for the second-largest deployed military presence in the world. 
She has led and developed the most significant reform and 
realignment of U.N. headquarters operations since the U.N. 
Department of Peacekeeping Operations was established in 1992. 
She consolidated business practices and strengthened existing 
structures to meet field demands that have quintupled over the 
past decade. She also effectively managed the growth of United 
Nations Peacekeeping from a $1.8 billion endeavor to a nearly 
$8 billion operation.
    Now, I realize that some have questioned the effectiveness 
of the United Nations, but to me, there is no question about 
the competency, leadership, and judgment of Jane Holl Lute. She 
brings to this job a lifetime of experience confronting the 
issues at the core of the Department's mission. She has managed 
crisis and emergency support, operations in some of the most 
difficult and dangerous places in the world, including Sudan, 
Timor, Congo, and the war in Lebanon.
    There is no doubt that she will bring to the Department a 
deep and broad understanding of what it takes to effectively 
prepare for and rapidly respond to emergencies and 
contingencies of all kinds, and that is of particular concern 
to the citizens of New York, who have experienced the pain and 
devastation of terrorism firsthand.
    Every day, we depend on a strong line of defense involving 
Homeland Security, the Coast Guard, Customs and Immigration, 
and have a strong partnership between our Federal Government, 
State Government, and our local government, and we simply just 
cannot afford to let our guard down. And with Ms. Lute as part 
of the executive team, I am confident that we will not.
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to share my unconditional support for this 
phenomenally talented nominee. As Mayor of New York City, I 
know what it takes to manage a crisis, and I am confident that 
she really does have the management skills and the dedication 
and the willingness to serve this country that we desperately 
need.
    She is a lifelong public servant, a strong and tested 
leader. She knows how to get things done, and my admiration is 
not just for her, but for her family. We all talk about service 
to this country. Both Ms. Lute and her husband have devoted 
their lives to service to this country, and I just wish we had 
more role models like them. It is a family that all of us 
should admire and try to copy, and I am just extremely proud 
and deeply supportive of the President's nomination for her for 
this critical position, and I would certainly urge you to 
consider it carefully.
    We need experience in this agency. We need dedication. We 
need somebody who is willing to be accountable and knows how to 
get things done. Jane Holl Lute is all of those things.
    I am going to head back to New York and make sure that the 
city is still there. Senator Coburn, you have a child there, as 
I remember.
    Senator Coburn. I do.
    Mr. Bloomberg. I am going back just to take care of her.
    Senator Coburn. I am very appreciative of that. [Laughter.]
    Mr. Bloomberg. And my daughters, as well.
    Thank you very much for your consideration. This is as good 
an appointment as I think has ever come before Congress. She 
has all the skills for this job, and I would just urge you to 
consider it very carefully, and thank you for your time.
    Chairman Lieberman. Mayor, thanks a lot. Your endorsement, 
your introduction means a lot to us on the Committee. You have 
a lot of experience with people working for you and with you, 
so your willingness to come here to testify on behalf of Ms. 
Lute really means a lot.
    I was thinking as you were speaking, your presence here 
means a lot to me because when you are here, it greatly 
increases the number of elected officials who are Independents. 
[Laughter.]
    Mr. Bloomberg. I am happy to be able to do that. 
[Laughter.]
    Now I am going back to New York, where I will be one of the 
few. [Laughter.]
    All the best. Thank you.
    Chairman Lieberman. Take care. Thank you.
    Mr. Bloomberg. Good luck. All the best.
    Chairman Lieberman. Safe travels.
    We will now proceed. Jane Holl Lute has filed responses to 
a biographical and financial questionnaire, answered pre-
hearing questions submitted by the Committee, and had her 
financial statements reviewed by the Office of Government 
Ethics. Without objection, this information will be made part 
of the hearing record, with the exception of the financial 
data, which are on file and available for public inspection in 
the Committee offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath, so Ms. 
Lute, I would ask you to please stand and raise your right 
hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Lute. I do.
    Chairman Lieberman. Thank you very much. Please be seated, 
and we would now welcome your opening statement. If there are 
people here you would like to recognize, this would be a good 
time to do it.

  TESTIMONY OF JANE HOLL LUTE\1\ TO BE DEPUTY SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Lute. Well, thank you very much, Mr. Chairman. Mr. 
Chairman, Ranking Member Collins, Members of the Committee, I 
am deeply honored by the President's nomination and the 
opportunity to appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lute appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    I want to thank the Mayor for those very kind words. I have 
been told repeatedly a nominee is advised not to make news in a 
confirmation hearing. I fear we may have already made some. It 
is not often you hear a New Yorker say such nice things about a 
Jersey girl. [Laughter.]
    So on behalf of Jersey girls everywhere, I want to thank 
the Mayor for his very nice remarks.
    But in all seriousness, despite my roots across the river, 
I have been a proud New Yorker for some time and have had a 
front row seat watching Mayor Bloomberg lead New York City in 
the shadow of September 11, 2001. I want to thank him for his 
leadership and for making the trip down here today.
    Mr. Chairman, Ranking Member Collins, Members of the 
Committee, I am also honored to be joined today by my husband, 
General Douglas Lute, whom some of you know, and the other 
members of my family, our eldest daughter, Amy Kyleen Lute; my 
brother, John; his son, John; my sister, Adele; our dear 
friend, Grace Carman; my sister-in-law, Noelle; her daughter, 
Brittany; my brother-in-law, Miles; my husband's sister, Pat 
Lute; and her husband, Charles Smith. Our other daughters----
    Chairman Lieberman. Is there anyone here not related to the 
nominee? [Laughter.]
    Ms. Lute. My parents, God rest their soul in heaven, I 
think are here, as well. Our daughters, Adellyn and Camryn, are 
not here. Adellyn is away at school, and Camryn would steal the 
show.
    A special word about my husband, Doug. He told me a moment 
ago he felt like a prop. Maybe he is, but he is my prop. He is 
the loving husband this morning, and I could not imagine my 
life without him and without his support. I am deeply blessed.
    My husband and I, as the Mayor said, Mr. Chairman and 
Ranking Member Collins and Members of the Committee, are public 
servants. My husband and I were called to service some time 
ago--a long time ago, it turns out--as soldiers in the U.S. 
Army, and that service brought me to Berlin, Germany, at the 
height of the Cold War, to the Middle East for Operation Desert 
Storm, to the National Security Council staff under both 
President George H.W. Bush and President Clinton, to U.N. 
Peacekeeping, where I ran support operations for the second-
largest deployed military presence in the world.
    That call to service has also brought me here today before 
you. I am deeply honored by President Obama's nomination and by 
Secretary Napolitano's confidence, and if confirmed, I will 
continue this tradition of service.
    Sitting here, I am struck by the breadth and weight of the 
challenges that confront the Department of Homeland Security, 
but I am also deeply impressed by the men and women who have 
made the work of securing the American homeland their calling. 
I am struck, too, by the collective knowledge, experience, and 
wisdom in this room. Few understand the challenges facing the 
Department of Homeland Security better than you, the Members of 
this Committee, and few understand the challenges of protecting 
and preparing the American people better than the first 
responders, fire fighters, law enforcement, those in emergency 
response and management and at State, local, and Tribal 
governments that span this great Nation.
    In the process of preparing for this hearing, I have 
reached out to many of these groups and sought their guidance, 
wisdom, and input. Many have joined us today, and I am honored 
by their presence.
    Let me thank Harold Schaitberger, President of the 
International Association of Fire Fighters; Sheriff Kennard of 
the National Sheriffs Association; Mary Fetchet, Founding 
Director of the Voices of September 11; and representatives 
from the International Association of Fire Chiefs, the 
International Association of Chiefs of Police, the 
International Emergency Managers Association, who are here 
today and who have already provided invaluable counsel. I will 
work to strengthen the Department's relationship with these 
communities and with the State, local, and Tribal officials, as 
well.
    I have spent my entire adult life working on the issues at 
the heart of the Department of Homeland Security, the heart of 
its mission--protection, prevention, preparedness, response, 
recovery, and resilience. As part of that experience, I have 
spent a great deal of time around many different borders and 
their many issues, in peace ending conflict, where a balance 
must be struck between maintaining safety and security while 
permitting, while indeed encouraging, legitimate trade and 
travel.
    I know what it is like to be responsible for preparing for 
and responding to emergencies when the need to gain accurate 
information, mobilize critical resources, and manage the 
coordination of those resources under the pressure of crisis is 
real. I know what it is like to be the officer in charge of 
support to hundreds of thousands of people in far-flung 
operations from diverse national, institutional backgrounds, 
each with legacies, traditions, cultures, and languages. I know 
the imperative of creating an integrated, coherent culture 
while respecting the individuality and uniqueness of its parts.
    While a new Administration brings change, some things will 
not change. The Department of Homeland Security must remain 
fully committed to its mission of keeping America and Americans 
safe, and we must do that while protecting the highest values 
and principles that define this great country. The Department 
must be responsible and responsive, proactive and engaged, 
robust and efficient. It must keep us prepared for the majestic 
force and might of Mother Nature, and it must protect us from 
the cruelty of those who target civilians.
    If confirmed, I will continue that path to keep our country 
safe, to keep the population secured and prepared and 
protected, and to keep our borders secure.
    America is at its best when Americans stand proud and 
confident, with a confidence that reflects clearly the deep 
values and traditions that built this great Nation.
    In conclusion, Mr. Chairman, let me underscore how deeply 
honored I am by the President's nomination and how deeply 
honored I am to appear before this Committee today. And with 
that, Mr. Chairman, I would be delighted to answer any 
questions the Committee may have.
    Chairman Lieberman. Thank you very much for an excellent 
opening statement.
    I will begin with the standard questions we ask of all 
nominees. First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Ms. Lute. No.
    Chairman Lieberman. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Lute. No.
    Chairman Lieberman. And do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Ms. Lute. I do.
    Chairman Lieberman. Thank you very much.
    Before we start the first round of questioning, I do want 
to note, in addition to the distinguished people that you have 
introduced, that the Committee has received several letters in 
support of your nomination, and unless there is any objection, 
I am going to place them in the record.\1\
---------------------------------------------------------------------------
    \1\ The letters of support referenced by Chairman Lieberman appear 
in the Appendix on page 430.
---------------------------------------------------------------------------
    Chairman Lieberman. We are going to now start with the 
first round of questions, limited to 7 minutes per member.
    I want to build really from your resume and from some of 
the things you have said in your opening statement, Ms. Lute, 
which is to ask you a two-part question. The first is, in a 
general sense, not too discursive, in all the administrative 
experience you have had, what are some of the lessons you draw 
that you think will best help you fulfill your responsibilities 
in this job?
    And second, from what you know of the Department, what do 
you think it needs most in this next chapter? It is a work in 
progress. It has made great progress, but there is still more 
to be done. So give us an answer to those two questions.
    Ms. Lute. Thank you, Mr. Chairman. I would say, 
overwhelmingly, the most important lesson I have learned has to 
do with people. People are the most important resource any 
enterprise or organization has. They need to feel valued, and 
they need to be able to be given the opportunity to contribute 
value. It is the responsibility of leadership and management to 
bring out the best that people have to offer.
    I have learned the importance of active listening, of 
reaching out to all the stakeholders who have firsthand 
knowledge of what are very complex issues and doing it in a way 
that does not have to interfere with getting a job done. You 
can be inclusive in your consultation process, but you can also 
be decisive.
    These are, I suppose, two of the biggest lessons that I 
have learned. Treat people with respect. Value the people who 
are doing this job who have made the work their calling. And 
listen actively and engage all the stakeholders, but in a 
systematic way to move issues forward.
    As I have come to learn over the course of preparation for 
this hearing, as I mentioned, Mr. Chairman, I am very impressed 
by the commitment of the men and women in the Department of 
Homeland Security. It is a young Department, many people have 
said. It just celebrated its sixth birthday. But in my view, as 
you mentioned, the time has come. People have a right to expect 
that this Department has its feet under it, that it is very 
clear about the centrality of its missions, the resources it 
needs to get those missions done, and again working with all 
stakeholders at State and local levels, with the Members of 
this Committee, to move that mission forward.
    Chairman Lieberman. Let me ask the follow-on to that, if in 
your discussions with Secretary Napolitano she has identified 
any particular areas that she wants you to focus on.
    Ms. Lute. The Secretary and I have discussed this, Mr. 
Chairman. It is her vision, and it is certainly one that I 
would fully support if I am confirmed, that I would form part 
of the leadership team of this Department, working very closely 
with her, being fully cited on all of the operational issues, 
all of the priorities that are established, overseeing day-to-
day, but also ensuring that the strategic development of the 
Department, the increasing coherence and integration of its 
various parts continues.
    Chairman Lieberman. Yesterday, the Committee held a hearing 
on the Mexican drug cartel violence, both what is happening 
there inside Mexico and what we can do to help President 
Calderon, and then the effects of the violence here. I will 
tell you that there was some evidence that the staff picked up 
that--and, of course, earlier this week, Secretary Napolitano 
announced the redeployment of some DHS and Justice Department 
resources to the border, and personnel--there is not enough 
coordination at this point between the Department of Homeland 
Security, the Department of Justice, and the Department of 
State in implementing all of these programs.
    I do not know whether you are in a position to have heard 
about that, if you have any thoughts about it. It just seemed 
to me that it may be something that you as Deputy could play a 
hand in, perhaps even putting together a more formal 
interagency working group, because this is a serious problem. 
Yesterday, the Department of Justice representative, the 
Deputy, told us that today, in addition to the overflow of some 
violence and kidnapping from Mexico into the U.S. border areas, 
the Mexican drug cartels are the No. 1 organized crime threat 
in America.
    So have you heard about those problems? If so, do you have 
any ideas about how to overcome them?
    Ms. Lute. Mr. Chairman, I have certainly heard about these 
problems. I am aware of the steps that the Administration and 
the Department are taking to strengthen the posture, the safety 
and security at the border. I am very aware of the importance 
that the Administration places on the support of the efforts of 
the Mexican government to break the back of these cartels and 
to deal with this problem that, as Secretary Napolitano has 
said, every American needs to be aware of and engaged with.
    This is an area, too, where I think my experience in the 
interagency process that I have had before and my experience 
with the intelligence community will complement Secretary 
Napolitano's experience. As a former governor of a border 
State, she knows these issues very well, and I would certainly, 
if confirmed, look forward to working very closely with her on 
this important priority.
    Chairman Lieberman. One more question in the time I have 
remaining, another substantive question, and that is about 
cyber security. This Committee has been concerned about our 
cyber security. We know that we are under regular attack, both 
for reasons of security and also to the commercial and 
industrial infrastructure of our country. There is a lot going 
on in the government. I know there are reviews going on in the 
new Administration. Here, too, there seems not to be a clear 
focus point of coordination, and I wanted to ask you to speak, 
to the extent you want, on how you assess the cyber security 
problem, and second, if you have any ideas going in about what 
the role of the Department of Homeland Security should be in 
our government in making sure that we are defending against 
cyber security attacks.
    Ms. Lute. This is an issue area, Mr. Chairman, where the 
White House does have a study going on right now to look 
comprehensively across the Federal Government about what 
actions are being taken to safeguard the cyber networks of this 
country.
    Again, in my own experience, I know how important high-
fidelity, reliable, safe and secure data and communications 
systems are. They do form part of the critical infrastructure 
of this country. The Department of Homeland Security is a key 
player in the cyber security framework to protect this country 
as part of its critical infrastructure, and I know the study 
that the White House is conducting is looking comprehensively 
to make recommendations about strengthening not only the 
Department's role, but the overall approach to keeping our 
Nation secure.
    Chairman Lieberman. Well, I appreciate your answer to that 
and your other answers. We are going to really rely on you and 
the Secretary to advise this Committee and particularly to let 
us know whether you are receiving the resources and the 
authority to do what you need to do to protect the cyber 
infrastructure of the United States, which we have reason to 
believe, unfortunately, by the nature of unconventional warfare 
these days, might be one of the areas of our homeland that 
would be most likely to be attacked from afar.
    So I thank you for your answer, your focus, and now I would 
yield to Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Ms. Lute, you may be aware that our Committee did an in-
depth investigation into the failed response to Hurricane 
Katrina. It took most of a year. We did several hearings, 
issued a report with recommendations for all levels of 
government. And we also wrote the Post-Katrina Emergency 
Management Reform Act, which was signed into law. It 
significantly strengthened the Federal Emergency Management 
Agency (FEMA), and since that time, I know the Chairman takes 
great pride in the fact, as do I, that FEMA's response to 
natural disasters has improved enormously.
    Nevertheless, there are some critics who are still calling 
for FEMA to be taken out of the Department of Homeland Security 
to become an independent entity. Now, I would note that all of 
the first responder groups sitting behind you who are indeed on 
the front lines agree with the conclusion that this Committee 
reached, which is that FEMA needed to be strengthened but kept 
within DHS.
    What are your thoughts on the location of FEMA?
    Ms. Lute. Thank you, Ranking Member Collins. I am aware of 
the issues that have been raised about this and certainly aware 
of the conclusions of this Committee, the position of the 
groups that are represented here. I am aware of the issues that 
exist on both sides of this question. There are some who say 
that FEMA is indeed strengthened by its location in the 
Department, with the ability to mobilize resources from other 
parts of the Department quickly, put them at the disposal of 
the emergency response anchored by FEMA, for example, as 
illustrated in Hurricanes Gustav and Ike, and there are others 
who think that FEMA needs degrees of freedom, perhaps, that an 
independent status would offer it.
    Secretary Napolitano has said that what we really need to 
focus on is a strong FEMA, able to discharge its core 
responsibilities of protecting and preparing this country for 
all hazards, and that is her focus and certainly one that I 
would, if I am confirmed, look to reinforce, as well.
    Senator Collins. Thank you. We look forward to continuing 
to talk with you about that very important issue.
    I would now like to turn to the matter that I alluded to in 
my opening statement. You and I have discussed at length the 
procurement failures at the U.N., but I think it is very 
important for the public record for me to ask you a series of 
questions.
    The U.N. has the equivalent of an Inspector General. It is 
called the Office of Internal Oversight Services (OIOS). In a 
report dated January 2 of this year, this office was highly 
critical of U.N. procurement activities, and in particular it 
criticized the lack of acquisition planning and contract 
management involving a sole source contract that your office 
requested be directed to a subsidiary of Lockheed Martin.
    First of all, let me ask what your response is to the 
criticisms leveled against your office or your management of 
this contract by the Inspector General.
    Ms. Lute. Thank you, Senator Collins. It will not surprise 
you to learn that I think that some of the criticisms were not 
justified. The context of this particular contract is important 
to establish. It was a unique recommendation by me and my staff 
through the appropriate authorities in the United Nations, 
fully consistent with the rules and regulations, in order to 
address the exigencies of the violence that was unfolding in 
Darfur. I do not agree with the assessment in this report that 
there was inadequate planning.
    The political circumstances surrounding this deployment 
were extremely volatile over a period of many months. As many 
of you know, concurrent to the indecision regarding the 
international community's response to Darfur, there were a 
number of governments, including the U.S. Government, including 
many members of this body, who were urging the rapid deployment 
of Peacekeepers to Darfur. This recommendation was made fully 
consistent with the rules, fully in the context of evaluation 
of the circumstances on the ground for a very small part to 
facilitate that deployment.
    Senator Collins. During your time at the U.N., did you make 
any other requests for non-competitive contracts to be awarded 
in excess of $1 million?
    Ms. Lute. I did not, Senator.
    Senator Collins. What exactly was your responsibility for 
procurement at the U.N.?
    Ms. Lute. My responsibilities were to lead the support 
operations to Peacekeeping and peace operations worldwide--
personnel, finance, logistics, supply chain management, 
aviation, communications electronics, information technology, 
and transportation. The Procurement Division rested in the 
Department of Management. One of the citings also, I believe, 
in the OIOS report was the difficulty in cross-departmental 
coordination. It is a problem that exists. I did not have 
procurement negotiating authority or contract award authority 
at all.
    Senator Collins. Did contracting officers report to you?
    Ms. Lute. Contracting officers at headquarters reported to 
the Department of Management, and in the field, they reported 
through their respective mission chains to the head of their 
mission. There was an earlier time when the support in the 
field had a dual report to my office and to the heads of 
mission, but since the Department of Field Support was 
established, that dual report was eliminated, and the field 
contracting officers report through their chain into the 
mission leadership.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    We will call, as is our custom, Senators in order of their 
arrival, which is Senators Akaka, Coburn, Voinovich, and 
Burris. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to thank you for taking the time to meet with me, 
Ms. Lute. I congratulate you on your nomination and welcome you 
here today, and not only you, but your extended family that are 
here.
    Ms. Lute. Thank you.
    Senator Akaka. It is great to know that you have these 
supportive relationships.
    I want to tell you that your job as the Deputy of DHS, and 
you know this, is among the most demanding positions in 
government. DHS represents, besides that, the most serious 
management challenge in the Federal Government today. Senior 
leaders of the Department must be ready and eager to take on 
the challenges that will face them. Your background, without 
question, is an impressive one that qualifies you well for the 
challenge that is ahead.
    I want to mention, too, that I really appreciated your 
remarks on the importance of investing in people. I want to 
further urge you to focus on the Department's management and 
integration as they are central to improving operational 
functions. You must ensure that DHS invests in the workforce, 
empowers the Under Secretary for Management, encourages 
strategic planning, and upholds our civil rights and civil 
liberties in all circumstances.
    Before I move to my questions, Mr. Chairman, I want to ask 
that my full statement be made part of the record.
    Chairman Lieberman. Without objection.
    [The prepared statement of Senator Akaka follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    Mr. Chairman, I am pleased to join you in welcoming Jane Holl Lute, 
the President's nominee to be Deputy Secretary of the Department of 
Homeland Security. Ms. Lute, I welcome you and your family today.
    The job for which you have been nominated is among the most 
demanding positions in government. DHS represents the most serious 
management challenge in the Federal Government today. Senior leaders of 
this Department must be ready and eager to take on the challenges that 
will face them.
    Your background is an impressive one that qualifies you well for 
this challenge. As an officer in the U.S. Army, you served your country 
overseas and learned the lessons of good leadership and management. 
Your time on the National Security Council staff undoubtedly left you 
with a broad understanding of coordinating policy across large, complex 
organizations and building consensus in an interagency setting. 
Finally, your service as an Assistant Secretary-General at the U.N. has 
allowed you to demonstrate your leadership skills on a global basis, 
working with a diverse United Nations staff and many nations' 
peacekeeping forces, especially in areas facing imminent crisis.
    As you may know, implementing and transforming the Department of 
Homeland Security has been on the Government Accountability Office's 
(GAO) ``high-risk list'' since 2003. I am pleased that since being 
confirmed, Secretary Napolitano has put management among her top 
priorities. Just last month, she began a departmentwide efficiency 
review initiative, which may help lead to programmatic improvements and 
greater accountability. If you are confirmed, I urge you to focus on 
the Department's management and integration, as they are central to 
improving its operational functions. I would like to share with you a 
few of my top DHS concerns.
    DHS must invest in its workforce. For instance, the Department 
needs to recruit more acquisition professionals to better develop and 
oversee contracts. DHS also must strive to make itself an employer of 
choice. The most recent Partnership for Public Service Best Places to 
Work survey ranked DHS second to last among large Federal agencies as 
being an employer of choice based on employee satisfaction and 
engagement. Strengthening employee collective bargaining rights and 
building a labor-management partnership would help DHS address employee 
concerns that undermine morale. Toward that end, I support President 
Obama in granting collective bargaining rights to Transportation 
Security Officers. By having a workforce with the right skills, high 
morale, and strong employee protections, DHS can improve our security 
while it strengthens its internal operations.
    In addition, I hope you will partner with the Under Secretary for 
Management to improve contract oversight and ensure strategic planning 
occurs before major acquisitions are undertaken. The U.S. Customs and 
Border Protection's Secure Border Initiative (``SBInet'') virtual fence 
has suffered both from inadequate planning before the initial 
contracting decisions were made as well as the failure to correct 
problems as they arose. Also, the Domestic Nuclear Detection Office 
(DNDO) needs to focus more on strategic planning to counter the threat 
of nuclear smuggling to better protect our security. For instance, DNDO 
set aside its plan to deploy a variety of Advanced Spectroscopic Portal 
(ASP) radiation monitors to detect dangerous nuclear materials on rail 
cars, at seaports, at airports, and on mobile platforms to focus on one 
type of ASP system. This system has not yet received final 
certification and, according to GAO, it may have lifecycle costs well 
over $1 billion more than anticipated by DNDO.
    Finally, we must ensure that our Constitutional freedoms are not 
considered as an afterthought. DHS's unique security role requires that 
it embraces civil rights and civil liberties in all its actions. I 
believe that the Department's policy at the border, which allows the 
search of laptops and other electronic equipment, needs to be reviewed 
with privacy concerns in mind. There is also the REAL ID Act. Along 
with imposing serious costs and burdens on States, this Act raises 
significant privacy concerns. The current law does not protect 
adequately personal information that would be contained on REAL ID 
cards and in linked State databases. Also, I believe that the National 
Applications Office should more fully resolve civil liberties concerns 
and compliance with privacy standards before DHS moves forward with 
making intelligence community assets available for domestic purposes 
such as law enforcement and homeland security.
    Ms. Lute, your long career in public service, including your 
willingness to take on the most challenging assignments in the U.N., 
serves as an excellent example of putting service before self. I want 
to congratulate you on your nomination, and I look forward to working 
closely with you to improve our Nation's homeland security.
    Thank you Mr. Chairman.

    Senator Akaka. Ms. Lute, according to the most recent 
Partnership for Public Service Best Places to Work survey, DHS 
ranks second to last among Federal agencies based on employee 
satisfaction and engagement. DHS must treat its workforce as 
its most valued asset. Therefore, it should work to address 
recruitment and retention challenges and ensure that its 
employees have collective bargaining rights, which will lead to 
better labor-management relationships. Will you please discuss 
your priorities for investing in the Department's workforce and 
making DHS a better place to work?
    Ms. Lute. Thank you, Senator. I am aware of this survey and 
I recognize that it represents a challenge for the Department. 
I am also aware that the Department has been viewed and rated 
as the most improved over time, as well. But we still have a 
long way to go.
    I mentioned before that people, to me, are the most 
important resource an organization has. I am not a person for 
whom people have to earn respect. Human beings deserve respect. 
You do not have to earn my respect. You deserve that. People 
have a calling when they come to Homeland Security. We cannot 
let it just become a job. We need to build on that calling, 
build on that commitment and work. Do they have the tools they 
need to do the job? Do they have the training? Are their front-
line supervisors well trained and invested? Do they feel like 
they are adding value? Do they feel valued in return?
    I think, comprehensively, this is an area that, if I am 
confirmed, I would want to work at, and I would look to work 
with and engage the workforce, the representatives of the 
workers that exist in the Department of Homeland Security, to 
chart a strong way forward.
    Senator Akaka. Ms. Lute, DHS policy allows laptops and 
other electronic devices to be searched at the border without 
suspicion. Courts have ruled that the Constitution permits 
this. Nevertheless, these searches may have significant privacy 
implications, as many people keep sensitive information, such 
as medical and financial records and work documents, on their 
laptops. Some companies have started taking expensive 
precautions to protect data when their employees travel abroad. 
Do you plan to review this policy? At a minimum, I hope you 
will ensure that any policy on border searches of electronic 
equipment includes strong privacy protections.
    Ms. Lute. Senator, I am aware of the issues that have been 
raised and aware of the concerns. The searches have been 
relatively few in number, and the Department has taken steps to 
improve its accounting, keeping records of when this does occur 
and ensuring that all the rules and regulations of this country 
are observed.
    The recent appointment of a noted privacy expert to that 
position is a testimony to the commitment that the Secretary 
has, and if I am confirmed, certainly I would support in 
ensuring that all the privacy and civil liberties and civil 
rights of people are maintained, even as we discharge our 
duties to secure the borders.
    Senator Akaka. Thank you for that, Ms. Lute.
    Executive Order 13434, issued in May 2007, established the 
National Security Professionals Development Program. Among 
other things, this program was created to help develop National 
Security Professionals by providing them training, education, 
and experiences to improve interagency coordination and 
collaboration. How do you foresee this program impacting DHS's 
workforce and Department-wide integration?
    Ms. Lute. I am aware of this program, Senator. I am also 
aware that it is designed to create a robust pool and cadre of 
professionals who can work across agencies in the national 
security field. I am aware that some already at the Department 
of Homeland Security have, in fact, been certified as National 
Security Professionals, and if I am confirmed, I would look at 
this program to understand how it can benefit the Department 
and how our engagement can strengthen it across the board.
    Senator Akaka. Well, thank you so much for your responses. 
I really appreciate it.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Akaka.
    Before I call on Senator Coburn, I do want to respectfully 
amend something that Mayor Bloomberg said. If I am not 
mistaken, while your daughter pursues her extraordinary career 
in New York, her residence is in Connecticut.
    Senator Coburn. Unfortunately, she has two residences now--
--
    Chairman Lieberman. All right.
    Senator Coburn [continuing]. One in New York and one in 
Connecticut. [Laughter.]
    She pays New York City income taxes, let me put it that 
way.
    Chairman Lieberman. Thank you.
    Senator Coburn. And Connecticut taxes.
    Chairman Lieberman. We are grateful. [Laughter.]
    Senator Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you. Ms. Lute, thank you for being 
here. I enjoyed our visit. I want to thank you and your 
husband, your family for the dedicated service you have given, 
not only to our country but to our world.
    As I told you in my office, I believe you have a lot to 
account for in your actions at the U.N., and I am going to go 
through a series of questions and will use a second round, if 
necessary, because I think the facts are not fully exposed as 
to some major failures under your leadership at the U.N. I also 
would ask that the OIOS report be entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The OIOS reports submitted for the Record by Senator Coburn 
appear in the Appendix on page 449.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection, so ordered.
    Senator Coburn. I also would note that every report we have 
that measures operations under your leadership has documented 
serious mismanagement issues. There is not one report that we 
can have that has any performance reports that document steps 
that you took to respond to the problems, whether there were 
improvements as a result of those responses. Without this 
documentation, I think our Committee is going to have a 
difficult time measuring your performance to determine if you 
truly are qualified to manage a Department the size of DHS and 
the security of the United States.
    A major campaign promise from President Obama is to 
identify and eliminate wasteful and duplicative government 
programs, and I applaud him for that. I am still waiting for 
him to do that, but I applaud him. I know that is in his heart 
and it is something he wants to do.
    Yet when I asked you to report which Peacekeeping missions 
you managed that were wasteful or duplicative or should be 
deauthorized, you chose not to answer my question. If you were 
unwilling to identify waste at the U.N., how do we know you 
will be willing to identify and eliminate waste and duplication 
at the Department of Homeland Security?
    Ms. Lute. Dr. Coburn, thank you, and also for our chat, 
which I appreciate. I am a real believer in the responsibility 
of management not only to achieve its mandates, but to be able 
to ensure that operations are run effectively and to account 
for the resources that have been entrusted to it. As I worked 
in the Department of Peacekeeping in charge of support to 
Peacekeeping operations around the world, this was an area 
across the board, in the area of personnel, where we were doing 
our best to reduce times necessary to recruit personnel, where 
we were putting in place training programs to ensure that the 
personnel that we did recruit had the training they needed so 
we did not have to recruit again, a wasteful exercise, in my 
judgment.
    I am very aware that resources in personnel and in missions 
and operations do constitute investments, and this is an area 
that I worked on very closely. And if I am confirmed, I would 
expect to bring the management experience that I have to the 
Department of Homeland Security in a responsible way.
    Senator Coburn. Will you make a statement to this Committee 
that you will comply faithfully on a timely basis to the 
Federal Accountability and Transparency Act?
    Ms. Lute. Yes, Senator.
    Senator Coburn. In the areas under your control, is there 
any report that you can share with the Committee that documents 
where you recommended or took action to eliminate waste?
    Ms. Lute. In many of the OIOS reports, Senator, that you 
cited, there are management responses of which I was a part and 
author, where we agreed with a great deal of the 
recommendations of OIOS, and where we disagreed, those were 
noted in the public reports of OIOS.
    Senator Coburn. Well, no. I am asking specifically, where 
is the report that showed in response to problems that were 
raised that problems were solved?
    Ms. Lute. In those reports, also, Senator, it reflects in 
part the management response to the findings that were raised 
by OIOS, which indicate that management has taken on board, has 
eliminated waste. For example, there are reports where OIOS 
pointed out excess spare parts inventory and noted that 
management had taken steps following those findings under my 
authority to reduce those excess inventories and put in place a 
system to ensure that they are not repeated.
    Senator Coburn. Would you be happy to supply those reports 
to the Committee?
    Ms. Lute. Senator, I have supported the request for the 
documents that have been requested, the public reports that are 
available through the U.N. website, and others.
    Senator Coburn. It raises a problem that we all should be 
concerned about. There is absolutely no transparency at the 
U.N. for us to even get information with which to evaluate a 
nominee who is going to hold a high position in our government. 
The information we have is all leaked reports that the average 
citizen of this world cannot have access to unless it is 
leaked, which tells us that we have great problems.
    Let me move on. In several of your responses to my pre-
hearing questions, you diverted responsibility for many of the 
management failures documented in U.N. audits and reports. For 
example, U.N. auditors found that you failed to apply 
consistent accountability standards for the Peacekeeping 
personnel you recruited, trained, and deployed into the field. 
Your response was you blamed rapid growth of the department and 
inexperienced mission personnel.
    Leaked U.N. memos reveal that, despite having 18 months to 
plan, the contract that Senator Collins discussed with you was 
pushed through, increasing the risk for fraud and abuse. You 
blamed, and your words were, ``unfolding genocide in Darfur,'' 
even though that tragedy was in the mix and ongoing for several 
years and even though the U.N. Security Council had reported 
about it 2 years prior. You blamed the remote and dangerous 
conditions of Darfur.
    U.N. auditors found that 43 percent of Peacekeeping 
procurement that was audited was tainted by bid rigging, 
kickback schemes, and other fraud. You again blamed difficult 
and challenging environments of Peacekeeping operations. You 
also blamed the Security Council for issuing difficult mandates 
that made it hard to follow the rules. I do not have any doubt 
about that. I am sure that was a high hurdle. I know the 
difficulty.
    There are not many similarities between Peacekeeping and 
homeland security, but they both deal with environments and 
operating conditions. If you are confirmed and are managing 
procurement and operations for programs such as FEMA, should we 
expect you to excuse management failures or procurement fraud 
due to difficult circumstances, such as natural disasters or 
terrorist attacks?
    Ms. Lute. Dr. Coburn, I believe that my record at the U.N. 
shows that I am very associated with efforts not only to 
implement mandates on the ground, but to ensure proper 
oversight and accountability. I was often very closely 
associated with OIOS, with its engagement to oversee 
operations, inviting them in. I was a strong proponent of the 
establishment of the Procurement Task Force. I was a strong 
voice for making that task force permanent, recognizing that 
the operating conditions, which you have described and which I 
have described, represent challenges that have to be met to be 
sure, but we also have to ensure that the proper controls are 
in place, as well, and I am associated with that effort. It is 
clear while improvement still has to be made, that we have come 
a long way, as OIOS has recognized.
    Senator Coburn. I have gone over on my time. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thank you, Senator Coburn. Next is 
Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman.
    I want to echo the thanks of this Committee and others for 
your service to our country and for the service of your husband 
to our country, and I am very pleased that you have been 
willing to continue your service in the Department of Homeland 
Security.
    Senator Akaka and I have been working quite aggressively to 
deal with transformation of the Department. It is the most 
challenging reorganization to get 22 agencies and more than 
200,000 people to move forward as a Department. I consider you 
to be part of the third chapter. The transformation of the 
Department is on the High-Risk List, and one of the things that 
we have been trying to do is to get an agreement on the metrics 
that we would use to determine whether transformation actually 
is taking place. There was a great deal of work done by the 
Office of Management and Budget (OMB), DHS, and the Government 
Accountability Office (GAO) to reach consensus on what those 
are.
    First, are you familiar with the transformation strategic 
plan that was put in place to move forward with the 
transformation in the Department, and second, if you are, when 
are we going to get back from the three agencies some agreement 
on metrics so we can better determine whether or not the 
transformation is indeed taking place?
    Ms. Lute. Thank you, Senator. I am aware. I also do know, 
as I mentioned earlier, that while many people continue to say 
that the Department of Homeland Security is a young department, 
it is also time for the Department to get on with its business, 
to get on with consolidating, integrating its various 
functions, and if I am confirmed, I would look forward very 
much to delving deeper into this across the board and to 
working with you and the other Members of this Committee to 
ensure that we make forward progress.
    Senator Voinovich. Well, I remain interested in receiving 
the piece of paper that shows the agreed upon metrics so we 
have something to objectively measure the performance of the 
Department because many of the things that have gone wrong have 
gone wrong because we have not moved forward with that 
transformation. That is why it is on the High-Risk List. It 
seems to me that one of the goals of the Department should be 
to get itself off the High-Risk List because if it does that, 
it means DHS has successfully completed its transformation. I 
am going to be focusing in on that with Senator Akaka because I 
think that is the only way that we are going to eliminate some 
of the things that have gone wrong in the Department.
    We now have a Chief Management Officer in the Department, 
and Senator Akaka and I would like to see a 5-year term for 
that individual, so we have somebody that can continue the 
transformation. I would like you to look into that. I am 
pleased that we were able to get the Chief Management Officer, 
but I would like to have that individual have a term just like 
I would like to have it over in the Defense Department. 
Sometimes I wish you were going to the Defense Department 
instead of this Department---- [Laughter.]
    Because they need a whole lot of help, too. So I would like 
you to look at that issue of having a term.
    Ms. Lute. Yes.
    Senator Voinovich. As Ranking Member on the Appropriations 
Subcommittee on Homeland Security, one of the things that 
struck me in my initial review of the budget was that we are 
spending an enormous amount of money on securing the border. 
Mr. Chairman, I think it is really important that we get a 
better understanding of where the money is going.
    There is no way that we will be ever able to afford to 
really secure the border without immigration reform in this 
country. Today, we have 33,000 beds around the country where 
people are brought in, kept for 5 or 6 days, and we pay for 
their medical care, process them, and send them back to their 
country.
    It is an enormous cost to us, and I look at that cost 
relative to other costs in the Department and say to myself, 
how far can we go with spending money on this particular issue? 
And if we were able to get immigration reform, what impact 
would that have on reducing those costs? Because that is our 
problem.
    So I would really like you to look at that issue and the 
whole issue of where are we spending the money in the 
Department. What are the priorities? There are only X-number of 
dollars that you have. I would like to have the Secretary come 
back and say to us, I have done an examination of all these 
things and here is where I think the dollars could be spent 
where we could get a better return on the investment we are 
making, considering that we have limited resources.
    One of the other two things that I talked to you about in 
my office was the Visa Waiver Program that has been very 
important to this country in terms of improving our national 
security and our public diplomacy. I would like you to look 
into the program and get back to me on where that is. There has 
been legislation introduced and referred to the Judiciary 
Committee that would gut the program, and I would like you to 
look at that.
    The other one was the PASS Program. We are trying to get 
legislation passed that would allow the PASS Card to meet the 
documentation requirement for people to travel to Canada and to 
the other Caribbean countries instead of a passport.
    In closing we are all concerned about the management of the 
Department. I like your words, empower people, listen, quality 
management, and so on and so forth. You have the right 
nomenclature. We are hopefully going to see how it all works 
out.
    Ms. Lute. Thank you, Senator.
    Chairman Lieberman. Thank you very much, Senator Voinovich. 
Senator Burris.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman, and 
congratulations to you for your nomination, Ms. Lute.
    I am concerned about an experience that I had when I came 
in as a cabinet officer of a governor back in 1972, where we 
had merged several agencies. I just heard Senator Voinovich 
raise that question about transformation. One of the biggest 
problems I had, Ms. Lute, was trying to deal with all of those 
agencies that did not want to give up their turf, and it got to 
be quite a situation. As the Deputy Secretary of Homeland 
Security, I would imagine that the Secretary is going to put a 
lot of that transformation in your lap. If I am wrong, let me 
know. But I think that there are still some areas of 
consolidation and reorganization and transformation that has to 
take place in Homeland Security in order to make that agency 
up, running, and functional.
    Have you done any assessment of this, and would you know 
whether or not this is going to be a major responsibility of 
yours?
    Ms. Lute. Thank you, Senator. I am certainly aware of the 
challenges that have existed, the challenges that were present 
when the Department was created from 22 agencies and various 
parts of the government coming together, and the efforts that 
have been made over these past 6 years to further the 
integration, to reduce duplication, and to strengthen add 
comparative advantages.
    My experience with integration and standing up a new 
department, as I was charged with in creating the Department of 
Field Support at the United Nations, is to do it in a way that 
reflects not only a respect for the legacies and traditions and 
the practices and the roles of the individual elements, but 
really does insist on the greater sum of the parts, that people 
make forward progress toward the integration that is called for 
by law, that has been called for by policy, as well.
    And if I am confirmed, I would expect to be given a leading 
role in ensuring that the integration of the Department, the 
further coherence of the Department, the proper engagement of 
the Department with the other Federal agencies across the 
interagency proceeds in a constructive way, and I would also 
hope to be able to work with this Committee very closely in 
ensuring that we stay on track.
    Senator Burris. So do you know whether or not you will be 
having any of these direct responsibilities for trying to 
complete the transformation process? Have you talked with the 
Secretary?
    Ms. Lute. The Secretary and I have spoken, Senator, about 
that. She, if I am confirmed, would consider me a full part of 
the leadership team of the Department, charged with maintaining 
not only the operational picture awareness, but movement on the 
priorities that the Secretary has herself. So yes, I would 
expect to be charged with responsibilities in this area, if I 
am confirmed.
    Senator Burris. I have not read all your background, but 
did you have disaster experience at your other positions?
    Ms. Lute. In my previous position, Senator, in fact, I was 
charged with leading support operations for Peacekeeping 
worldwide. In the course of that, I was also the Officer in 
Charge of Peacekeeping during the war in Southern Lebanon that 
happened in 2006, managing the emergency evacuation of 
personnel in that situation and in other situations, as well. 
We have had to respond to massacres and killings of U.N. 
Peacekeepers, for example, and I am associated with that, and 
also associated in mobilizing the Peacekeeping support element 
of other crisis response operations. And in that context, as I 
mentioned in my opening statement, I am very aware of the 
imperatives of establishing a clear information picture, 
mobilizing the proper resources, getting those resources where 
they need to be on the ground, and then managing the 
integration of those resources in the performance of a crisis 
response.
    Senator Burris. Ms. Lute, we had another issue in dealing 
with our Southern borders. Of course, we have to be concerned a 
little bit about our Northern borders, as well. I think the 
Canadian border is even bigger than the Southern border. And 
the question is, in terms of the drug trafficking that is 
coming in, do you have any type of experience with communities 
where all of these drugs end up, end users in our communities, 
Chicago, Centralia, or Mattoon, Illinois, or anywhere in 
America, because the small-town communities are really getting 
inundated, as well, with these drugs that are coming in, which 
will also be a part of Homeland Security's interdiction, I 
would assume?
    Ms. Lute. Senator, here is an area where I think my 
experience would complement the experience of Secretary 
Napolitano. I have had a lot of experience over the course of 
my professional life, indeed, beginning in my professional 
life, in and around borders--borders during the Cold War, 
contested borders in the Middle East and in other areas. In 
Africa, for example----
    Senator Burris. When you say your experience, what do you 
mean by your experience with borders? What do you mean?
    Ms. Lute. As a young lieutenant, I was assigned to Berlin. 
The border of the Cold War----
    Senator Burris. When were you in Berlin? What years?
    Ms. Lute. Nineteen-seventy-eight to 1982.
    Senator Burris. Nineteen-seventy-eight to 1982. The war was 
still there, right?
    Ms. Lute. Yes, Senator, it was.
    Senator Burris. Yes, because I studied in Germany, so I was 
a little concerned in terms of that.
    Ms. Lute. But I am aware of the effects of conflict, the 
effects of the illegal trafficking in weapons, in cash, in 
illicit contraband and other commodities, the effects that it 
has on impoverished communities internationally, and if I am 
confirmed, I would expect to bring my experience to complement 
that of Secretary Napolitano, who has first-hand experience 
dealing with these issues in the domestic context as the former 
governor of a border State.
    Senator Burris. Thank you very much, and good luck to you.
    Ms. Lute. Thank you.
    Senator Burris. God bless you.
    Ms. Lute. Thank you.
    Chairman Lieberman. Thanks, Senator Burris.
    It is actually a tribute to you and an indication of the 
importance in which Members of the Committee hold your 
nomination that we have more than our normal attendance today, 
so with that, Senator Landrieu, it is all yours.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman.
    I would not have missed this hearing. I think this is one 
of the most important nominations that our President has made, 
and I have had the pleasure, Ms. Lute, to meet with you 
privately at some length about some of the very pressing issues 
that are so important not only to our country, but to the State 
that I represent and to the region.
    Let me begin, Mr. Chairman, by saying I continue to be 
extremely impressed with the quality of the nominees that have 
come through my office as well as the offices of many other 
Senators, whether it is in the Department of Education, the 
Department of Housing and Urban Developmen (HUD), or the 
Department of Homeland Security. Just the level of your 
academic achievements, of your broad and deep experience, and 
all of that will come in handy to run an agency that needs a 
tremendous amount of work and effort. Despite the good work of 
the leadership of this Committee, there are serious problems, 
in my view, with Homeland Security, and I think that your 
experience will--you will need all of it to get the job done 
from where I sit.
    But let me ask you this specifically, and then I will go 
more broadly. As we previously discussed, you may be aware of a 
GAO report that has indicated that while we have allocated from 
the Federal Treasury $120 billion for the recovery efforts in 
the Gulf Coast over the last 4 years (it will be 4 years this 
August), maybe 40 percent of that money was wasted. Some of it 
is because of inability at the local level, but most of it, 
according to this report, is because of the poorly constructed 
and ill constructed avenues that FEMA had either not 
established or had atrophied. Not only was the money wasted and 
lots of it unaccounted for, in terms of poor training, etc., 
but the real sad part of it is that thousands of eligible 
individuals and families went unserved.
    So since I represent 4.5 million people that this travesty 
happened to, my question is, as we attempt to fix pieces of 
this, and we have fixed some but there are some that still have 
to be fixed, there are currently several billion dollars that 
are caught up in a now 4-year dispute between FEMA and the 
folks on the ground in New Orleans and Baton Rouge and Houma 
and many other places in our State. Despite repeated efforts in 
the past, FEMA rejected any effort to fix it. So I recently 
added a provision to the stimulus package to establish an 
arbitration panel.
    What is your understanding of how that will work? Are you 
committed to making it work? If so, when will those regulations 
be in place to basically move out the $4 to $5 billion that we 
think are stuck in the pipeline, as we say, between the Federal 
Government and local officials that are desperate for these 
funds to hit the ground?
    Ms. Lute. Thank you, Senator. Secretary Napolitano, as you 
know, together with the Secretary of Housing and Urban 
Development, recently made a trip to the Gulf Coast, and the 
Secretary reiterated her commitment and the commitment of the 
Department of Homeland Security to the recovery of the region 
and of the State. The recent extension of the Office of Gulf 
Coast Recovery, as well, is a further sign of the commitment of 
the Administration to follow through on this.
    I am aware of the strengthening of FEMA as a result of the 
Post-Katrina Emergency Management Reform Act and the efforts 
that FEMA has been taking and the Department has been taking to 
further strengthen not only FEMA in the performance of its 
duties, but its relationship with State and local officials. 
And if I am confirmed, Senator, I would expect to look at this 
area very closely in the context that you outlined, working 
together with you and the Members of this Committee to ensure 
that the statutes that are put in place and the performance of 
the Department and of FEMA is what you expect.
    Senator Landrieu. And the reason I pursue this line of 
questioning, and I do have two more brief questions, is because 
I have just completed with the good support of this Committee a 
9-month investigation. We conducted over 90 to 120 interviews 
with individuals, and thousands of documents were reviewed, and 
what we found were many failings between FEMA and HUD for lack 
of a comprehensive housing recovery plan should a large 
population be displaced, and that is the subject for another 
hearing.
    But the point is this, that our report also showed that the 
person who held your job before--I think it was Deputy 
Secretary Michael Jackson, is that correct? The report shows 
that decisions made at this level, from your position, 
prevented some of the requests that FEMA was making to 
interpret the Stafford Act in a more flexible way that would 
have actually brought aid, saved money, and spared a lot of 
pain and suffering.
    So I bring it to you because if FEMA is going to stay in 
Homeland Security, then we have to have faith that the people 
running Homeland Security will give FEMA the attention it needs 
to get the job done when we have a potential flood, like right 
now in North Dakota and Minnesota, and when we have more 
hurricanes in the Gulf or the Atlantic.
    My second question is actually about the Coast Guard. They 
were the one agency of the Federal Government that actually 
responded and performed magnificently, and that story will be 
written and it will be a proud moment for the Coast Guard. I 
understand they had to do a lot of things outside of the chain 
of command to get the job done, but that is for another story. 
They got it done.
    But the Coast Guard has now been tasked with coming up with 
new rules and regulations to govern offshore vessels, and while 
I am very supportive of that and Thad Allen is a great 
Commandant of the Coast Guard, I want you to be mindful that 
the offshore oil and gas industry, which exists only in the 
Gulf of Mexico, with big vessels and big ships, is very 
different than the cargo vessels that come in and out of all of 
our ports, including Louisiana's. And I want to call to your 
attention that this industry is being threatened by regulations 
that refuse to treat them in a different way than these large 
cargo vehicles.
    Do I have your commitment to look into this issue, report 
back to me within a few weeks about what you or the Secretary 
can do to give some relief, appropriately without bending any 
security rules, for the offshore oil and gas industry?
    Ms. Lute. Senator, if I am confirmed, you certainly have my 
commitment to look at these issues, to work with you as part of 
the outreach of the Department not only to State and local 
governments, the private sector is an important partner, as 
well, and you certainly have my commitment.
    Senator Landrieu. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Landrieu.
    We will go to a second round now. I want to follow up, Ms. 
Lute, on some of the questions that Senator Coburn asked about 
your time at the United Nations. As I understand it, these 
United Nations reports are typically confidential unless a 
member state specifically requests a report or reports. Am I 
right in what I have heard, which is that after meeting with 
Senator Coburn and hearing his desire to see these reports, you 
requested that the U.N. release the particular reports that 
Senator Coburn had in mind, or you requested our government to 
request the reports?
    Ms. Lute. I wrote a request to the Under Secretary-General 
for Management at the United Nations----
    Chairman Lieberman. Right.
    Ms. Lute [continuing]. Fully supporting the release of all 
the material that was requested. Some of the reports are 
available publicly when the member state requests them. I am 
not a member state. Some of them are internal management 
documents that remain under the control of the United Nations.
    Chairman Lieberman. So the problem with the reports and 
their openness is not obviously yours. This is the United 
Nations policy.
    Ms. Lute. Senator, yes.
    Chairman Lieberman. Yes. And if we are troubled by it, we 
may want to do something about that more generally, but I 
wanted to get on the record that you have tried your best to 
get those reports made public.
    I suppose the relevant follow-on question is whether as 
Deputy Secretary you would support open and transparent 
oversight of the Department of Homeland Security by the 
Inspector General (IG), GAO, Congress, and others?
    Ms. Lute. Yes, Mr. Chairman, I would.
    Chairman Lieberman. Senator Coburn referred to a specific 
OIOS report and additional reports more generally. If I 
understand this correctly, much like an IG report, these 
reports noted concerns or problems, which that office 
investigated. Those reports then typically offer specific 
recommendations for corrective actions. So if I heard you 
correctly, it was that in your responses to those when it was 
relevant, you indicated what you thought of the findings and 
what you were intending to do about it.
    Ms. Lute. That is correct, Mr. Chairman. We prepare our 
detailed management responses to these reports when they come 
out. The Office of Internal Oversight Services takes portions 
of the management response, incorporates it into its final 
report, which is then issued.
    Chairman Lieberman. So let me ask you a general question, 
which is, because we do not have the documents, would you say 
that it was typical more often than not that you agreed with 
those recommendations and directed people under your 
supervision to take corrective actions?
    Ms. Lute. Yes, Mr. Chairman, overwhelmingly.
    Chairman Lieberman. Again, I am going to ask you to go from 
your memory, since you do not have the documents. Can you 
provide some examples of steps that you took to improve the 
acquisitions process at the Department of Peacekeeping 
Operations?
    Ms. Lute. In direct response to not only concerns raised by 
OIOS, but our own operational concerns that the system was 
being overwhelmed, I sought a senior level meeting, and we 
established a senior-level engagement on specifically this 
question. I instituted a requirements review panel. I 
instituted a mission start-up, a monitoring process, what we 
called the traffic lights process--red, yellow, green--to have 
senior-level attention of the key support issues that were 
unfolding at the time of the mission start-up, which is a 
critical time. I worked with the Department of Management. My 
staff worked with them to expand the core requirements list to 
facilitate direct procurement on the ground where a lot of it 
occurs. We also worked with OIOS to bring them in at mission 
start-up so that they could be present.
    As I mentioned, Mr. Chairman, I was a strong supporter of 
the Procurement Task Force, of making that task force 
permanent, and of instituting policies within the Department to 
be responsive to the Procurement Task Force and OIOS.
    Chairman Lieberman. In regard to the Procurement Task 
Force, I do want to note that there is a very relevant and, I 
would say, remarkable letter\1\ filed with the Committee by 
Robert M. Appleton, former Chairman of the United Nations 
Procurement Task Force--that was a task force set up by the 
Secretary General of the U.N. in 2006, following the Iraqi Oil 
for Food scandal. Mr. Appleton says of you, ``Ms. Lute 
continuously supported the task force's investigations and our 
efforts to minimize the risks posed to the organization as a 
result of the significant amount of funds used for DPKO,'' the 
Department of Peacekeeping Operations, ``procurement. While 
program managers in the U.N. are not formally required to 
follow or accept the conclusions and recommendations of 
oversight bodies,'' which is quite interesting itself, ``Ms. 
Lute nevertheless reacted swiftly and responsibly and took 
immediate corrective action where we found corruption, fraud, 
or violations of internal rules or procedures of the U.N.''
---------------------------------------------------------------------------
    \1\ The letter from Mr. Appleton referenced by Chairman Lieberman 
appears in the Appendix on page 430.
---------------------------------------------------------------------------
    I mean, that is from an outside investigator, and then 
there is another letter\2\ filed with the Committee by 
Christopher Burnham, an American citizen who was then at the 
U.N. as Under Secretary-General for Management. I happen to 
know Mr. Burnham. I did not know he wrote the letter until just 
now. But he does not offer these superlatives too often. ``Jane 
Lute was not a good manager, she was a great manager. 
Inheriting the single most difficult mission at the entire 
U.N., Peacekeeping, she supported my efforts at good governance 
and controls and advocated for even stiffer controls within 
Peacekeeping, such as the creation of an Inspector General 
within Peacekeeping.''
---------------------------------------------------------------------------
    \2\ The letter from Mr. Burnham referenced by Chairman Lieberman 
appears in the Appendix on page 434.
---------------------------------------------------------------------------
    I understand the questions that are being raised, but I do 
think that these are very significant statements filed on your 
behalf, and I appreciate the answers that you have given to my 
questions. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Let me continue with this line of questioning because I am 
trying to sort out here exactly what your responsibilities were 
and what your responses were to some of these reports. Like the 
Chairman, I have heard from people whom I respect that you are 
an extraordinarily good manager, and so I take those testaments 
very seriously. On the other hand, I am very troubled by the 
Procurement Task Force's findings.
    During the 18-month period that the Task Force did its 
investigations, it completed 63 investigations. It issued 22 
reports. It identified more than 10 significant fraud and 
corruption schemes in cases involving contracts. That is an 
extraordinary level of fraud and corruption. It led to 
convictions in some cases for bribery, wire fraud, and mail 
fraud.
    What troubles me is that this indicates systemic weaknesses 
if the percentage is that high and the degree of fraud and 
corruption that great. Of these contracts that were reviewed 
and found to have significant fraud and corruption, what were 
your responsibilities for these contracts?
    Ms. Lute. Senator Collins, as I mentioned earlier, my 
responsibilities were to ensure the support operations in the 
area of personnel, finance, logistics, aviation, 
communications, and IT, that those operations were mounted and 
sustained for Peacekeeping operations worldwide. We had the 
responsibility to raise requirements on the ground where the 
field staff were concerned, and my staff at headquarters had 
the responsibility for the technical review of bids, the 
technical evaluation of the sufficiency. The negotiation and 
award of contracts rested with the Department of Management.
    Senator Collins. Right, but you are establishing the 
requirements, correct? The people who reported directly to you?
    Ms. Lute. Senator, the people who were raising the 
requirements on the ground were mission personnel, and there 
were some removed, but certainly those on the support side, 
particularly early on, as I mentioned, without going into the 
complexities of the U.N. reporting chain, fell under my 
responsibility.
    Senator Collins. So when you became aware of the extent of 
corruption and fraud, what actions did you take? There were 22 
reports, and I could go through them, asking you what you did 
in response to each one, but give me an answer on what actions 
you took when the Procurement Task Force found widespread fraud 
and corruption that indicated there were systemic weaknesses 
that allowed this to occur.
    Ms. Lute. Senator, some of the actions I took directly--in 
fact, some of the cases, we referred to the Procurement Task 
Force. Without the ability to recall those for you precisely, I 
do know that is, in fact, the case. Whenever an allegation was 
raised, we took immediate steps, if necessary, to suspend 
people from the duties that they were performing to ensure that 
a full investigation was conducted and then that appropriate 
action, management action, was taken in response to that 
investigation.
    Now, we also addressed----
    Senator Collins. Those are personnel actions, so that was 
one response.
    Ms. Lute. Right, and----
    Senator Collins. But did you put into the system additional 
reviews or safeguards or higher-level approvals to ensure the 
integrity of the procurement process?
    Ms. Lute. As I mentioned earlier, Senator, we did. I 
instituted a Requirements Review Board at a senior level to 
ensure that significant requirements being raised in the field 
had an additional layer of evaluation. I instituted the traffic 
light system that I mentioned earlier, particularly at the 
beginning phase, to deal with start-ups of operations because 
they were coming fast and furiously at the U.N. and it was 
essential that we have senior-level engagement and oversight. 
And this was a weekly meeting that I myself chaired, together 
with senior personnel on the ground in the field, with a common 
framework of the support issues that were being engaged, 
including major procurements.
    We worked very closely with the Department of Management on 
the issue of personnel. For example, part of our problem, in my 
view, was the fact that we were always short of experienced 
procurement personnel with the expertise necessary for these 
very complex commercial transactions. I am very aware of the 
challenges that exist in raising requirements accurately, that 
can be accurately costed, and the importance of being able to 
present those requirements to the procurement officials. We 
instituted a program to identify, recruit, train, and bring on 
board procurement people because while they do exist in the 
world, those who can function with an expertise, fluent in 
English, fluent in other languages, in remote and difficult 
parts of the world, are relatively few in number. So this was 
part of our structural problem we had to address.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks again, Senator Collins. Senator 
Coburn.
    Senator Coburn. Thank you.
    Ms. Lute, would you give us copies of the letters you wrote 
urging the U.N. to disclose the reports?
    Ms. Lute. Yes, Senator.
    Senator Coburn. Thank you. I would also note for the record 
that Mr. Appleton never audited Ms. Lute's performance or her 
response or the outcomes. He only spoke of her verbal 
commitment to react.
    I would also remind my colleagues on this panel that we 
voted 97-0 for transparency within the U.N. When it went to 
conference, that came out. So the problems that we are having 
today are not Ms. Lute's fault in terms of having knowledge, it 
is our fault because we chose to make transparency important to 
the United Nations, and then when it went to conference, we 
pulled it out, even though 97 of us said we should have that 
transparency. I would hope that we would not allow that to 
happen this year on the foreign operations appropriation 
budget.
    Ms. Lute, in my pre-hearing questions, I asked you how many 
no-bid contracts were issued for Peacekeeping missions you 
deployed. You did not answer that question, but you offered 
that you only participated in one of those, and we have 
discussed that already, and that may or may not have been 
appropriate. I cannot judge that. Do you know the answer to my 
original question? How many no-bid contracts were issued under 
your authority?
    Ms. Lute. Under my authority, Dr. Coburn, as I said, I had 
no authority to negotiate or award contracts.
    Senator Coburn. Well, you issued one, the one to Lockheed.
    Ms. Lute. I made a recommendation to the authorities that 
based on the analysis of our staff at the time, this would be a 
solution for a very limited portion of one phase of the complex 
deployment to Darfur.
    Senator Coburn. In other areas outside of your direct 
involvement, how many other recommendations were made for no-
bid contracts?
    Ms. Lute. Dr. Coburn, I do not have the knowledge to answer 
your question.
    Senator Coburn. From the people that worked for you, you do 
not know that answer?
    Ms. Lute. I am not aware of any other time at which we 
recommended a sole source solution.
    Senator Coburn. OK.
    Ms. Lute. I certainly did not.
    Senator Coburn. When I asked you about the 2007 report by 
the U.N. Office of Internal Oversight Services that found 
inconsistent accountability standards applied to personnel you 
recruited and deployed, you mentioned that you did not have 
access to these types of reports on your performance. How can 
you be an effective manager if you have no access to your own 
performance data?
    Ms. Lute. Dr. Coburn, in response to the OIOS reports, we 
wrote detailed management letters. In many cases, 
overwhelmingly, we agreed with the findings of OIOS that we 
could improve the way we were doing business. Peacekeeping 
experienced unprecedented growth in the 60-year history of 
Peacekeeping during my time there. It was our commitment to not 
only fulfill the responsibilities that were being given to us 
by the members of the Security Council, of which the United 
States is a member, but also that we would improve the way we 
ran ourselves and account.
    Senator Coburn. But you would agree that field procurement 
was under your purview?
    Ms. Lute. Again, Dr. Coburn, without going into the 
intricacies of the U.N. organization, those personnel on the 
ground in the various missions reported to their individual 
missions.
    Senator Coburn. I understand that, and I understand the 
complexity, but either it was under your purview or it was not. 
Is that a yes or a no?
    Ms. Lute. Field procurement was an area of Peacekeeping 
procurement, was an area that under the general responsibility 
of support to Peacekeeping operations----
    Senator Coburn. So the answer is yes. Was there at any time 
after you became aware of the significant problems in terms of 
procurement and fraud and kickbacks and everything else that 
you actually addressed the Security Council on those issues 
with the depth of the problem, made them aware of the depth of 
the problem, so that they, in fact, could make changes at that 
level at the U.N.?
    Ms. Lute. Dr. Coburn, the Security Council and the General 
Assembly have different sets of responsibilities----
    Senator Coburn. I understand that. I want you to answer my 
question. Was there any time at which you made the members of 
the Security Council aware of the depth of the problem and the 
significant complications associated with Peacekeeping 
procurement?
    Ms. Lute. I am aware many times, Dr. Coburn, when I spoke 
to member states of the United Nations in various forums, in 
various oversight committees----
    Senator Coburn. Let me ask it a different way. Was there 
ever an opportunity presented to you that you could have made 
the entire Security Council aware?
    Ms. Lute. Again, Dr. Coburn, as the Security Council, I do 
not recall. This is not normally an area of the Security 
Council's purview. It is a member--it belongs to the General 
Assembly under the arrangements of the United Nations. But the 
oversight body is the Fifth Committee----
    Senator Coburn. So you never had an opportunity to make 
them aware of it?
    Ms. Lute. The members of the Security Council were 
certainly aware of the challenges that Peacekeeping faced----
    Senator Coburn. A different question.
    Ms. Lute [continuing]. And of our----
    Senator Coburn. Did you ever make them aware of the 
significant difficulties in the Peacekeeping procurement?
    Ms. Lute. I personally made member states of the United 
Nations----
    Senator Coburn. No, I am talking----
    Ms. Lute [continuing]. Including members of the Security 
Council----
    Senator Coburn. Did you at any time in the collective body 
where you had an opportunity to make them aware? Of the 
Security Council.
    Ms. Lute. I would have to recall, Dr. Coburn, if the 
Security Council ever took up this issue specifically. If they 
had, I would have appeared.
    Senator Coburn. Let me go on to another area. The 2008 U.N. 
audit of your Liberia mission found that you deployed the 
mission without adequate safety and health programs, that your 
personnel were suffering from a high rate of malaria and dengue 
fever. When I asked you about this in the pre-hearing 
questions, you stated you were not aware of the details 
associated with Peacekeeping's response to the report and 
blamed the high rate of infection due to personnel you trained 
and deployed not taking medicines.
    The U.N. spends hundreds of millions of dollars annually on 
malaria prevention programs. Why did you not mobilize this 
resource and expertise to protect your own personnel?
    Ms. Lute. Dr. Coburn, the care and safety of Peacekeepers 
in the field is the responsibility of all of the leadership of 
Peacekeeping. Peacekeepers, when they are deployed, begin in 
the countries that they come from. There is rigorous training 
that a number of countries put their troops through, including 
safety and health matters, as well. That training is reiterated 
in missions at many opportunities, and it is an area--the 
safety, again, and health of the troops is one for which----
    Senator Coburn. Were you aware of how your Department 
responded to the alarming report that they, in fact, had high 
rates of malaria infection?
    Ms. Lute. Earlier, Dr. Coburn, I was aware when these 
issues came up in other mission areas, and I was aware of it at 
an earlier time when there was concern about malaria in 
Liberia, and we did take steps to ensure that training was in 
place and that appropriate medicines and medical procedures 
were in place, as well.
    Senator Coburn. If it were not for this U.N. audit, would 
you have been aware of the high infection rates?
    Ms. Lute. If that were the case, Dr. Coburn, yes, we would 
have been aware because it deeply impacts the ability of a 
mission to perform its assigned tasks.
    Senator Coburn. All right. I am out of time.
    Chairman Lieberman. Thanks, Senator Coburn. I think Senator 
Collins and I just have one more question each. I do not want 
to cut you off, but I cannot stay for too----
    Senator Coburn. I do not have many more questions.
    Chairman Lieberman. So we will do one more 7-minute round, 
but I think I am only going to take one question worth of it.
    So just to pull back a bit from the U.N. and even from 
management, I want to ask you this substantive question. What 
would you say should be the first one, two, or three policy 
priorities, homeland security priorities of the Department as 
you are considered to be its Deputy Secretary?
    Ms. Lute. Certainly, Mr. Chairman, as the Secretary has 
herself said, the primary focus of the Department is to keep 
this country and keep Americans safe from the threat of 
terrorism from any future terrorist attacks. But the Department 
equally has a big job to do. It has unique missions in the 
areas of maritime security, aviation security, border security, 
as well, and it is mobilizing, as the Secretary has said to 
this Committee, to address an immediate response on the 
Southern border. If I were confirmed, I would expect to work 
with the Secretary on these priorities, the priorities also 
dealing with immigration, and the other challenges that the 
Department of Homeland Security has been given.
    Chairman Lieberman. I want to just pick up from something 
you said and draw out on it a bit. It has been a priority of 
this Committee to improve the security of non-aviation 
transportation. We have done a very good job, I think, at 
improving aviation transportation, but we have a ways to go on 
trains, buses, and, of course, just following the history of 
terrorism, Mumbai, the earlier Mumbai rail attack, London, 
Madrid, unfortunately, terrorists tend to move in that 
direction. Do you have any ideas about that?
    Ms. Lute. I am certainly aware, Mr. Chairman, that concern 
exists that this is an area that needs greater focus by the 
Department, and it would be an area, if I am confirmed, where I 
would expect to hear from and engage extensively with State and 
local officials as well as with the private sector. The 
critical infrastructure on the ground in this country in many 
cases is in private hands, in municipal hands, and we need to 
work jointly to ensure that it has the priority that aviation 
security has had.
    Chairman Lieberman. Good. Thank you. I have no further 
questions. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. I am going to 
submit for the record several questions that I did not get to 
today, but I do want to bring up two final points.
    First, in June, DHS will implement the Western Hemisphere 
Travel Initiative at the land ports of entry, which will 
require travelers to provide compliant documents for entry into 
the United States. I am concerned, however, that the 
technological infrastructure that is necessary to process those 
documents, including passport cards, efficiently will not be in 
place by June at all of the land ports of entry, and let me 
give you an example from my home State of Maine.
    The port of entry in Calais, Maine, is the sixth busiest on 
the Northern border. It is under construction, and it will not 
be completed until the end of this year. Until the port is 
completed and the new technology is in place, the processing of 
passengers and vehicles at this port of entry could be backed 
up and slowed when the new Western Hemisphere Travel Initiative 
goes into full effect in June.
    Now, it is clearly important that the Federal Government 
continue its efforts to strengthen our border security and to 
protect the Nation from terrorist threats, but we have to do so 
in a way that does not unnecessarily hinder the travel of 
legitimate individuals who regularly cross the border and 
obviously pose no threat to our national security.
    What will you do to ensure that the Travel Initiative is 
implemented in a way that takes into account the fact that we 
have not done the investments in infrastructure at all of the 
land ports of entry?
    Ms. Lute. Senator Collins, I am aware of the concerns 
regarding the aging infrastructure. On average, the ports of 
entry are over 40 years old, and in particular, in the context 
of fielding the Western Hemisphere Travel Initiative, the 
Department has a three-part strategy, as you know: One, to get 
the documents ready; two, to ensure that the technology is in 
place and functioning; and three, that there is an aggressive 
outreach program to ensure that people are aware of what the 
requirements are, and the Secretary has said that the 
Department will continue to be on track for the June deadline.
    And if I am confirmed, I would expect to look at this very 
closely to see that we do strike the right balance, as I 
mentioned earlier, between the safety and security of our 
borders, but facilitating and, indeed, encouraging legitimate 
trade and travel, and I would hope to work with you and with 
other Senators from Northern border States where ports of entry 
exist to ensure that this is the case.
    Senator Collins. Thank you. In response to Senator 
Lieberman's standard questions of all nominees, you indicated 
your willingness to respond to requests for information from 
this Committee. I would be remiss in my duties as the Ranking 
Minority Member if I did not ask that you also treat requests 
from the Minority in the same manner as you do from the 
Chairman, although I think you will find that almost always our 
requests will be joint.
    Ms. Lute. You have my commitment.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks again, Senator Collins. Senator 
Coburn.
    Senator Coburn. First of all, we are going to be allowed 
questions for the record?
    Chairman Lieberman. We are.
    Senator Coburn. I would ask unanimous consent that if we do 
that, we do not have a Committee markup of this nomination 
until those responses are returned.
    Chairman Lieberman. I am going to reserve the right to 
object. Here is my problem, my friend. Secretary Napolitano, 
every time she sees me, before we get to substantive matters, 
says, when are you going to act on the nomination of Jane Holl 
Lute? I need a Deputy. So as you know, I think it is the 
intention of the Committee to mark up this nomination and other 
matters next Wednesday. So, frankly, that depends on how many 
questions you are going to ask.
    Senator Coburn. There are not going to be more than maybe a 
dozen.
    Chairman Lieberman. I suppose there is always the 
possibility that the nominee could say she cannot answer the 
questions, right?
    Senator Coburn. That is what we have received so far.
    Chairman Lieberman. Well, with that understanding, I am not 
going to object. We are going to ask that the questions be 
filed by the end of business tomorrow----
    Senator Coburn. Without a problem.
    Chairman Lieberman [continuing]. So that we can move them 
quickly and give you some time before the markup on Wednesday.
    Senator Collins. Mr. Chairman, in view of the conversation 
you have just had, I would suggest that the questions be 
provided by the end of today because if we are going to be fair 
to the nominee----
    Senator Coburn. Absolutely. We will do our best to do that.
    Chairman Lieberman. Excellent. We will do that.
    Senator Coburn. Ms. Lute, you were responsible for the 
U.N.'s response to the sexual abuse and exploitation of 
refugees by the personnel that were deployed by your Department 
to the field. The most recent assessment of how you responded 
comes from Human Rights Watch, which reports there was a lack 
of speed of investigations, a lack of transparency and follow-
through, and a lack of breadth of the investigations. My staff 
also spoke individually to independent workers and observers on 
the ground of several missions where abuse took place, and we 
are told there are dozens of children victimized by 
Peacekeeping personnel that 4 years later--4 years later--still 
have not received U.N. assistance or had their basic victims' 
rights protected.
    Why do we have no record of the number of victims you 
assisted, the type of care you provided, or the number of U.N. 
personnel that have been successfully prosecuted?
    Ms. Lute. Dr. Coburn, I was in charge, as you outlined, 
with the U.N.'s effort to fix what is an inexcusable and 
terrible problem. I began that effort and dealt with it 
structurally and comprehensively to put in place a program of 
prevention in terms of clarifying what the standards were, 
undertaking to make those standards applicable to all 
personnel, training, awareness, of putting in place in every 
mission a conduct and discipline team that never existed before 
to ensure that steady progress and improvement would be made in 
this area.
    In the area of enforcement, we undertook expeditiously to 
work with OIOS so that when issues were raised, they were 
addressed properly.
    Senator Coburn. I understand that, but the question I asked 
you is why do we not have a record of the number of victims 
that were assisted, the type of care that was actually 
provided? You are talking about the prevention in the future, 
which I recognize is part of your function, as well, and the 
number of U.N. people who were prosecuted. Why do we not have 
that record?
    Ms. Lute. Dr. Coburn, in terms of victims' assistance and 
remediation, there is in place as a result of one of the 
working groups on the task force that I chaired a comprehensive 
victims' assistance policy that was approved by the General 
Assembly about a year ago.
    Senator Coburn. Yes, let us go to that. In response to my 
pre-hearing questions, you stated that in 2007, you convened a 
high-level meeting that issued a statement of commitment with 
standards of behavior. Why did it take 2 years to implement 
standards of behavior against abusing refugees under the U.N.'s 
care? Why did it take 2 years?
    Ms. Lute. Dr. Coburn, let me share your frustration. Let me 
share a lack of understanding why things like this take as long 
as they do. No one can be satisfied that it took us as long as 
it did to put in place programs to address victims' concerns. 
But a program is in place. Programs are also in place--it is 
not possible now for someone to deploy to a Peacekeeping 
mission and not know what the standards are. It is not possible 
for a leader in Peacekeeping to not know that they are 
personally held accountable to the Secretary-General for being 
aware of the conduct and discipline within their missions. And 
the organization is also taking steps to implement the victims' 
assistance policy, which was approved by the General Assembly.
    Senator Coburn. The victims' assistance policy, you were in 
charge of that 2-year effort to have them adopt a victims' 
support strategy. That was in 2008. That was 4 years after the 
scandal erupted. Is 4 years a long time to develop a victims' 
assistance program, and what did we do for all the victims that 
were abused prior to 2008?
    Ms. Lute. Dr. Coburn, I agree with you that it took a long 
time, and no one can be satisfied with how long it has taken to 
address these issues in a comprehensive structural way. The 
policy that we put in place before the formal victims' 
assistance policy was adopted by the General Assembly was that 
Peacekeeping missions would work with U.N. sister agencies, in 
particular UNICEF, who would in turn work with nongovernmental 
organizations on the ground to provide victims' assistance. But 
it was our aim with this victims' assistance policy to engage 
missions more directly in that process.
    Senator Coburn. One other question. After it became evident 
to you that Peacekeeping abuse was a widespread problem in 
these operations, why did we not then require countries to 
prosecute their troops caught abusing refugees as a condition 
of working with the U.N.?
    Ms. Lute. The member states of the United Nations retain 
the sovereign rights and authorities over their troops. I think 
on part of my behalf this morning, the Committee has a letter 
from Prince Zeid, the Jordanian Ambassador to the United 
States,\1\ who was in charge of a comprehensive review of this 
challenge as directed by the Secretary-General in 2004. He 
indicated that the member states do have to take responsibility 
and follow up on these actions.
---------------------------------------------------------------------------
    \1\ The letter from Prince Zeid referenced by Ms. Lute appears in 
the Appendix on page 444.
---------------------------------------------------------------------------
    We did institute a policy in Peacekeeping where we reduced 
the amount of time in following up on member states on the 
actions that were taken when soldiers were found to have 
engaged in this inexcusable behavior. We reduced the amount of 
time and we instituted a more thorough process of following up 
with the member states, but the authority rests with them.
    Senator Coburn. You would agree that there was nothing that 
required you to take troops from countries that had legalized 
pedophilia?
    Ms. Lute. Dr. Coburn, I was very associated with the 
message in the United Nations that if soldiers were not 
prepared to uphold the standards of the United Nations, then 
the United Nations should be prepared to do without their 
services.
    Senator Coburn. Thank you.
    Mr. Chairman, I will submit the rest of my questions for 
the record. I would just ask the nominee, first of all, you 
have been very cooperative. Thank you. You had a tough job 
there, I do not doubt that at all. But I would hope that you 
will answer the questions that I submit rather than defer not 
to answering them. I think it will speak much to your character 
if you do so. Thank you.
    Chairman Lieberman. Thanks, Senator Coburn.
    Incidentally, when I said that you might not answer all the 
questions in time, I meant if it required more time to get 
documents from elsewhere to submit back to us prior to the 
markup next Wednesday. I know you will answer all the questions 
of Senator Coburn and other Members to the best of your 
ability.
    Ms. Lute. Yes, Mr. Chairman.
    Chairman Lieberman. I do want to say, Senator Coburn has 
asked some very tough but important questions, and my own 
conclusion about these, based on the documents, the work of our 
staff, the documents before the Committee, our overall record, 
is that the problems here were in the U.N., and that actually 
by the testimony of the two people whose letters I quoted 
earlier, including the outside investigator, and the letter 
from His Royal Highness Prince Zeid, who was then Jordan's 
Ambassador to the U.N. and was charged by Kofi Annan to 
investigate these cases of sexual abuse and exploitation by 
U.N. Peacekeepers, you rose up as unusual in trying to take on 
those problems.
    And I will just quote briefly from Prince Zeid's statement. 
``From the very minute I began to work on this,'' which was an 
assignment Kofi Annan had given him, ``Assistant Secretary-
General Lute was fiercely committed to ridding the U.N. of this 
dreadful phenomenon,'' the sexual exploitation, ``and when most 
of her colleagues (in and out of the U.N. Secretariat) were 
largely dismissive of the allegations against Peacekeepers, she 
would have none of it. Instead, she fought with equal 
determination to unwrap these disturbing practices. It is worth 
noting in this context that in earlier years, an allegation 
against a U.N. Peacekeeper would predictably be concealed from 
public view by a very embarrassed United Nations. Ms. Lute 
sought to change all that.''
    So I think Senator Coburn is really focusing on some real 
problems that ought to concern us in regard to the U.N., to 
which we give a substantial amount of money every year, but I 
think ultimately, you stood up in the midst of all that against 
all that, and so that is why I am so comfortable in supporting 
you.
    I want to thank you for appearing before the Committee 
today.
    Without objection, I am going to amend this from what we 
normally say. The record will be kept open until the end of 
business today for the submission of any written questions. 
Tomorrow at the end of business will be the deadline for any 
additional statements for the record from yourself or anybody 
on the Committee. And then we will look forward to going to 
markup on your nomination along with a lot of other business we 
have next Wednesday.
    I thank you very much.
    Ms. Lute. Thank you, Mr. Chairman.
    Chairman Lieberman. I wish you the best.
    The hearing is adjourned.
    [Whereupon, at 12 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0383.001

[GRAPHIC] [TIFF OMITTED] T0383.002

[GRAPHIC] [TIFF OMITTED] T0383.003

[GRAPHIC] [TIFF OMITTED] T0383.004

[GRAPHIC] [TIFF OMITTED] T0383.005

[GRAPHIC] [TIFF OMITTED] T0383.006

[GRAPHIC] [TIFF OMITTED] T0383.007

[GRAPHIC] [TIFF OMITTED] T0383.008

[GRAPHIC] [TIFF OMITTED] T0383.009

[GRAPHIC] [TIFF OMITTED] T0383.010

[GRAPHIC] [TIFF OMITTED] T0383.011

[GRAPHIC] [TIFF OMITTED] T0383.012

[GRAPHIC] [TIFF OMITTED] T0383.013

[GRAPHIC] [TIFF OMITTED] T0383.014

[GRAPHIC] [TIFF OMITTED] T0383.015

[GRAPHIC] [TIFF OMITTED] T0383.016

[GRAPHIC] [TIFF OMITTED] T0383.017

[GRAPHIC] [TIFF OMITTED] T0383.018

[GRAPHIC] [TIFF OMITTED] T0383.019

[GRAPHIC] [TIFF OMITTED] T0383.020

[GRAPHIC] [TIFF OMITTED] T0383.021

[GRAPHIC] [TIFF OMITTED] T0383.022

[GRAPHIC] [TIFF OMITTED] T0383.023

[GRAPHIC] [TIFF OMITTED] T0383.024

[GRAPHIC] [TIFF OMITTED] T0383.025

[GRAPHIC] [TIFF OMITTED] T0383.026

[GRAPHIC] [TIFF OMITTED] T0383.027

[GRAPHIC] [TIFF OMITTED] T0383.028

[GRAPHIC] [TIFF OMITTED] T0383.029

[GRAPHIC] [TIFF OMITTED] T0383.030

[GRAPHIC] [TIFF OMITTED] T0383.031

[GRAPHIC] [TIFF OMITTED] T0383.032

[GRAPHIC] [TIFF OMITTED] T0383.033

[GRAPHIC] [TIFF OMITTED] T0383.034

[GRAPHIC] [TIFF OMITTED] T0383.035

[GRAPHIC] [TIFF OMITTED] T0383.036

[GRAPHIC] [TIFF OMITTED] T0383.037

[GRAPHIC] [TIFF OMITTED] T0383.038

[GRAPHIC] [TIFF OMITTED] T0383.039

[GRAPHIC] [TIFF OMITTED] T0383.040

[GRAPHIC] [TIFF OMITTED] T0383.041

[GRAPHIC] [TIFF OMITTED] T0383.042

[GRAPHIC] [TIFF OMITTED] T0383.043

[GRAPHIC] [TIFF OMITTED] T0383.044

[GRAPHIC] [TIFF OMITTED] T0383.045

[GRAPHIC] [TIFF OMITTED] T0383.046

[GRAPHIC] [TIFF OMITTED] T0383.047

[GRAPHIC] [TIFF OMITTED] T0383.048

[GRAPHIC] [TIFF OMITTED] T0383.049

[GRAPHIC] [TIFF OMITTED] T0383.050

[GRAPHIC] [TIFF OMITTED] T0383.051

[GRAPHIC] [TIFF OMITTED] T0383.052

[GRAPHIC] [TIFF OMITTED] T0383.053

[GRAPHIC] [TIFF OMITTED] T0383.054

[GRAPHIC] [TIFF OMITTED] T0383.055

[GRAPHIC] [TIFF OMITTED] T0383.056

[GRAPHIC] [TIFF OMITTED] T0383.057

[GRAPHIC] [TIFF OMITTED] T0383.058

[GRAPHIC] [TIFF OMITTED] T0383.059

[GRAPHIC] [TIFF OMITTED] T0383.060

[GRAPHIC] [TIFF OMITTED] T0383.061

[GRAPHIC] [TIFF OMITTED] T0383.062

[GRAPHIC] [TIFF OMITTED] T0383.063

[GRAPHIC] [TIFF OMITTED] T0383.064

[GRAPHIC] [TIFF OMITTED] T0383.065

[GRAPHIC] [TIFF OMITTED] T0383.066

[GRAPHIC] [TIFF OMITTED] T0383.067

[GRAPHIC] [TIFF OMITTED] T0383.068

[GRAPHIC] [TIFF OMITTED] T0383.069

[GRAPHIC] [TIFF OMITTED] T0383.070

[GRAPHIC] [TIFF OMITTED] T0383.071

[GRAPHIC] [TIFF OMITTED] T0383.072

[GRAPHIC] [TIFF OMITTED] T0383.073

[GRAPHIC] [TIFF OMITTED] T0383.074

[GRAPHIC] [TIFF OMITTED] T0383.075

[GRAPHIC] [TIFF OMITTED] T0383.076

[GRAPHIC] [TIFF OMITTED] T0383.077

[GRAPHIC] [TIFF OMITTED] T0383.078

[GRAPHIC] [TIFF OMITTED] T0383.079

[GRAPHIC] [TIFF OMITTED] T0383.080

[GRAPHIC] [TIFF OMITTED] T0383.081

[GRAPHIC] [TIFF OMITTED] T0383.082

[GRAPHIC] [TIFF OMITTED] T0383.083

[GRAPHIC] [TIFF OMITTED] T0383.084

[GRAPHIC] [TIFF OMITTED] T0383.085

[GRAPHIC] [TIFF OMITTED] T0383.086

[GRAPHIC] [TIFF OMITTED] T0383.087

[GRAPHIC] [TIFF OMITTED] T0383.088

[GRAPHIC] [TIFF OMITTED] T0383.089

[GRAPHIC] [TIFF OMITTED] T0383.090

[GRAPHIC] [TIFF OMITTED] T0383.091

[GRAPHIC] [TIFF OMITTED] T0383.092

[GRAPHIC] [TIFF OMITTED] T0383.093

[GRAPHIC] [TIFF OMITTED] T0383.094

[GRAPHIC] [TIFF OMITTED] T0383.095

[GRAPHIC] [TIFF OMITTED] T0383.096

[GRAPHIC] [TIFF OMITTED] T0383.097

[GRAPHIC] [TIFF OMITTED] T0383.098

[GRAPHIC] [TIFF OMITTED] T0383.099

[GRAPHIC] [TIFF OMITTED] T0383.100

[GRAPHIC] [TIFF OMITTED] T0383.101

[GRAPHIC] [TIFF OMITTED] T0383.102

[GRAPHIC] [TIFF OMITTED] T0383.103

[GRAPHIC] [TIFF OMITTED] T0383.104

[GRAPHIC] [TIFF OMITTED] T0383.105

[GRAPHIC] [TIFF OMITTED] T0383.106

[GRAPHIC] [TIFF OMITTED] T0383.107

[GRAPHIC] [TIFF OMITTED] T0383.108

[GRAPHIC] [TIFF OMITTED] T0383.109

[GRAPHIC] [TIFF OMITTED] T0383.110

[GRAPHIC] [TIFF OMITTED] T0383.111

[GRAPHIC] [TIFF OMITTED] T0383.112

[GRAPHIC] [TIFF OMITTED] T0383.113

[GRAPHIC] [TIFF OMITTED] T0383.114

[GRAPHIC] [TIFF OMITTED] T0383.115

[GRAPHIC] [TIFF OMITTED] T0383.116

[GRAPHIC] [TIFF OMITTED] T0383.117

[GRAPHIC] [TIFF OMITTED] T0383.118

[GRAPHIC] [TIFF OMITTED] T0383.119

[GRAPHIC] [TIFF OMITTED] T0383.120

[GRAPHIC] [TIFF OMITTED] T0383.121

[GRAPHIC] [TIFF OMITTED] T0383.122

[GRAPHIC] [TIFF OMITTED] T0383.123

[GRAPHIC] [TIFF OMITTED] T0383.124

[GRAPHIC] [TIFF OMITTED] T0383.125

[GRAPHIC] [TIFF OMITTED] T0383.126

[GRAPHIC] [TIFF OMITTED] T0383.142

[GRAPHIC] [TIFF OMITTED] T0383.143

[GRAPHIC] [TIFF OMITTED] T0383.144

[GRAPHIC] [TIFF OMITTED] T0383.145

[GRAPHIC] [TIFF OMITTED] T0383.146

[GRAPHIC] [TIFF OMITTED] T0383.147

[GRAPHIC] [TIFF OMITTED] T0383.148

[GRAPHIC] [TIFF OMITTED] T0383.149

[GRAPHIC] [TIFF OMITTED] T0383.150

[GRAPHIC] [TIFF OMITTED] T0383.151

[GRAPHIC] [TIFF OMITTED] T0383.152

[GRAPHIC] [TIFF OMITTED] T0383.153

[GRAPHIC] [TIFF OMITTED] T0383.154

[GRAPHIC] [TIFF OMITTED] T0383.155

[GRAPHIC] [TIFF OMITTED] T0383.127

[GRAPHIC] [TIFF OMITTED] T0383.128

[GRAPHIC] [TIFF OMITTED] T0383.129

[GRAPHIC] [TIFF OMITTED] T0383.130

[GRAPHIC] [TIFF OMITTED] T0383.131

[GRAPHIC] [TIFF OMITTED] T0383.132

[GRAPHIC] [TIFF OMITTED] T0383.133

[GRAPHIC] [TIFF OMITTED] T0383.134

[GRAPHIC] [TIFF OMITTED] T0383.135

[GRAPHIC] [TIFF OMITTED] T0383.136

[GRAPHIC] [TIFF OMITTED] T0383.137

[GRAPHIC] [TIFF OMITTED] T0383.138

[GRAPHIC] [TIFF OMITTED] T0383.139

[GRAPHIC] [TIFF OMITTED] T0383.140

[GRAPHIC] [TIFF OMITTED] T0383.141

[GRAPHIC] [TIFF OMITTED] T0383.156

[GRAPHIC] [TIFF OMITTED] T0383.157

[GRAPHIC] [TIFF OMITTED] T0383.158

[GRAPHIC] [TIFF OMITTED] T0383.159

[GRAPHIC] [TIFF OMITTED] T0383.160

[GRAPHIC] [TIFF OMITTED] T0383.161

[GRAPHIC] [TIFF OMITTED] T0383.162

[GRAPHIC] [TIFF OMITTED] T0383.163

[GRAPHIC] [TIFF OMITTED] T0383.164

[GRAPHIC] [TIFF OMITTED] T0383.165

[GRAPHIC] [TIFF OMITTED] T0383.166

[GRAPHIC] [TIFF OMITTED] T0383.167

[GRAPHIC] [TIFF OMITTED] T0383.168

[GRAPHIC] [TIFF OMITTED] T0383.169

[GRAPHIC] [TIFF OMITTED] T0383.170

[GRAPHIC] [TIFF OMITTED] T0383.171

[GRAPHIC] [TIFF OMITTED] T0383.172

[GRAPHIC] [TIFF OMITTED] T0383.173

[GRAPHIC] [TIFF OMITTED] T0383.174

[GRAPHIC] [TIFF OMITTED] T0383.175

[GRAPHIC] [TIFF OMITTED] T0383.176

[GRAPHIC] [TIFF OMITTED] T0383.177

[GRAPHIC] [TIFF OMITTED] T0383.178

[GRAPHIC] [TIFF OMITTED] T0383.179

[GRAPHIC] [TIFF OMITTED] T0383.180

[GRAPHIC] [TIFF OMITTED] T0383.181

[GRAPHIC] [TIFF OMITTED] T0383.182

[GRAPHIC] [TIFF OMITTED] T0383.183

[GRAPHIC] [TIFF OMITTED] T0383.184

[GRAPHIC] [TIFF OMITTED] T0383.185

[GRAPHIC] [TIFF OMITTED] T0383.186

[GRAPHIC] [TIFF OMITTED] T0383.187

[GRAPHIC] [TIFF OMITTED] T0383.188

[GRAPHIC] [TIFF OMITTED] T0383.189

[GRAPHIC] [TIFF OMITTED] T0383.190

[GRAPHIC] [TIFF OMITTED] T0383.191

[GRAPHIC] [TIFF OMITTED] T0383.192

[GRAPHIC] [TIFF OMITTED] T0383.193

[GRAPHIC] [TIFF OMITTED] T0383.194

[GRAPHIC] [TIFF OMITTED] T0383.195

[GRAPHIC] [TIFF OMITTED] T0383.196

[GRAPHIC] [TIFF OMITTED] T0383.197

[GRAPHIC] [TIFF OMITTED] T0383.198

[GRAPHIC] [TIFF OMITTED] T0383.199

[GRAPHIC] [TIFF OMITTED] T0383.200

[GRAPHIC] [TIFF OMITTED] T0383.201

[GRAPHIC] [TIFF OMITTED] T0383.202

[GRAPHIC] [TIFF OMITTED] T0383.203

[GRAPHIC] [TIFF OMITTED] T0383.204

[GRAPHIC] [TIFF OMITTED] T0383.205

[GRAPHIC] [TIFF OMITTED] T0383.206

[GRAPHIC] [TIFF OMITTED] T0383.207

[GRAPHIC] [TIFF OMITTED] T0383.208

[GRAPHIC] [TIFF OMITTED] T0383.209

[GRAPHIC] [TIFF OMITTED] T0383.210

[GRAPHIC] [TIFF OMITTED] T0383.211

[GRAPHIC] [TIFF OMITTED] T0383.212

[GRAPHIC] [TIFF OMITTED] T0383.213

[GRAPHIC] [TIFF OMITTED] T0383.214

[GRAPHIC] [TIFF OMITTED] T0383.215

[GRAPHIC] [TIFF OMITTED] T0383.216

[GRAPHIC] [TIFF OMITTED] T0383.217

[GRAPHIC] [TIFF OMITTED] T0383.218

[GRAPHIC] [TIFF OMITTED] T0383.219

[GRAPHIC] [TIFF OMITTED] T0383.220

[GRAPHIC] [TIFF OMITTED] T0383.221

[GRAPHIC] [TIFF OMITTED] T0383.222

[GRAPHIC] [TIFF OMITTED] T0383.223

[GRAPHIC] [TIFF OMITTED] T0383.224

[GRAPHIC] [TIFF OMITTED] T0383.225

[GRAPHIC] [TIFF OMITTED] T0383.226

[GRAPHIC] [TIFF OMITTED] T0383.227

[GRAPHIC] [TIFF OMITTED] T0383.228

[GRAPHIC] [TIFF OMITTED] T0383.229

[GRAPHIC] [TIFF OMITTED] T0383.230

[GRAPHIC] [TIFF OMITTED] T0383.231

[GRAPHIC] [TIFF OMITTED] T0383.232

[GRAPHIC] [TIFF OMITTED] T0383.233

[GRAPHIC] [TIFF OMITTED] T0383.234

[GRAPHIC] [TIFF OMITTED] T0383.235

[GRAPHIC] [TIFF OMITTED] T0383.236

[GRAPHIC] [TIFF OMITTED] T0383.237

[GRAPHIC] [TIFF OMITTED] T0383.238

[GRAPHIC] [TIFF OMITTED] T0383.239

[GRAPHIC] [TIFF OMITTED] T0383.240

[GRAPHIC] [TIFF OMITTED] T0383.241

[GRAPHIC] [TIFF OMITTED] T0383.242

[GRAPHIC] [TIFF OMITTED] T0383.243

[GRAPHIC] [TIFF OMITTED] T0383.244

[GRAPHIC] [TIFF OMITTED] T0383.245

[GRAPHIC] [TIFF OMITTED] T0383.246

[GRAPHIC] [TIFF OMITTED] T0383.247

[GRAPHIC] [TIFF OMITTED] T0383.248

[GRAPHIC] [TIFF OMITTED] T0383.249

[GRAPHIC] [TIFF OMITTED] T0383.250

[GRAPHIC] [TIFF OMITTED] T0383.251

[GRAPHIC] [TIFF OMITTED] T0383.252

[GRAPHIC] [TIFF OMITTED] T0383.253

[GRAPHIC] [TIFF OMITTED] T0383.254

[GRAPHIC] [TIFF OMITTED] T0383.255

[GRAPHIC] [TIFF OMITTED] T0383.256

[GRAPHIC] [TIFF OMITTED] T0383.257

[GRAPHIC] [TIFF OMITTED] T0383.258

[GRAPHIC] [TIFF OMITTED] T0383.259

[GRAPHIC] [TIFF OMITTED] T0383.260

[GRAPHIC] [TIFF OMITTED] T0383.261

[GRAPHIC] [TIFF OMITTED] T0383.262

[GRAPHIC] [TIFF OMITTED] T0383.263

[GRAPHIC] [TIFF OMITTED] T0383.264

[GRAPHIC] [TIFF OMITTED] T0383.265

[GRAPHIC] [TIFF OMITTED] T0383.266

[GRAPHIC] [TIFF OMITTED] T0383.267

[GRAPHIC] [TIFF OMITTED] T0383.268

[GRAPHIC] [TIFF OMITTED] T0383.269

[GRAPHIC] [TIFF OMITTED] T0383.270

[GRAPHIC] [TIFF OMITTED] T0383.271

[GRAPHIC] [TIFF OMITTED] T0383.272

[GRAPHIC] [TIFF OMITTED] T0383.273

[GRAPHIC] [TIFF OMITTED] T0383.274

[GRAPHIC] [TIFF OMITTED] T0383.275

[GRAPHIC] [TIFF OMITTED] T0383.276

[GRAPHIC] [TIFF OMITTED] T0383.277

[GRAPHIC] [TIFF OMITTED] T0383.278

[GRAPHIC] [TIFF OMITTED] T0383.279

[GRAPHIC] [TIFF OMITTED] T0383.280

[GRAPHIC] [TIFF OMITTED] T0383.281

[GRAPHIC] [TIFF OMITTED] T0383.282

[GRAPHIC] [TIFF OMITTED] T0383.283

[GRAPHIC] [TIFF OMITTED] T0383.284

[GRAPHIC] [TIFF OMITTED] T0383.285

[GRAPHIC] [TIFF OMITTED] T0383.286

[GRAPHIC] [TIFF OMITTED] T0383.287

[GRAPHIC] [TIFF OMITTED] T0383.288

[GRAPHIC] [TIFF OMITTED] T0383.289

[GRAPHIC] [TIFF OMITTED] T0383.290

[GRAPHIC] [TIFF OMITTED] T0383.291

[GRAPHIC] [TIFF OMITTED] T0383.292

[GRAPHIC] [TIFF OMITTED] T0383.293

[GRAPHIC] [TIFF OMITTED] T0383.294

[GRAPHIC] [TIFF OMITTED] T0383.295

[GRAPHIC] [TIFF OMITTED] T0383.296

[GRAPHIC] [TIFF OMITTED] T0383.297

[GRAPHIC] [TIFF OMITTED] T0383.298

[GRAPHIC] [TIFF OMITTED] T0383.299

[GRAPHIC] [TIFF OMITTED] T0383.300

[GRAPHIC] [TIFF OMITTED] T0383.301

[GRAPHIC] [TIFF OMITTED] T0383.302

[GRAPHIC] [TIFF OMITTED] T0383.303

[GRAPHIC] [TIFF OMITTED] T0383.304

[GRAPHIC] [TIFF OMITTED] T0383.305

[GRAPHIC] [TIFF OMITTED] T0383.306

[GRAPHIC] [TIFF OMITTED] T0383.307

[GRAPHIC] [TIFF OMITTED] T0383.308

[GRAPHIC] [TIFF OMITTED] T0383.309

[GRAPHIC] [TIFF OMITTED] T0383.310

[GRAPHIC] [TIFF OMITTED] T0383.311

[GRAPHIC] [TIFF OMITTED] T0383.312

[GRAPHIC] [TIFF OMITTED] T0383.313

[GRAPHIC] [TIFF OMITTED] T0383.314

[GRAPHIC] [TIFF OMITTED] T0383.315

[GRAPHIC] [TIFF OMITTED] T0383.316

[GRAPHIC] [TIFF OMITTED] T0383.317

[GRAPHIC] [TIFF OMITTED] T0383.318

[GRAPHIC] [TIFF OMITTED] T0383.319

[GRAPHIC] [TIFF OMITTED] T0383.320

[GRAPHIC] [TIFF OMITTED] T0383.321

[GRAPHIC] [TIFF OMITTED] T0383.322

[GRAPHIC] [TIFF OMITTED] T0383.323

[GRAPHIC] [TIFF OMITTED] T0383.324

[GRAPHIC] [TIFF OMITTED] T0383.325

[GRAPHIC] [TIFF OMITTED] T0383.326

[GRAPHIC] [TIFF OMITTED] T0383.327

[GRAPHIC] [TIFF OMITTED] T0383.328

[GRAPHIC] [TIFF OMITTED] T0383.329

[GRAPHIC] [TIFF OMITTED] T0383.330

[GRAPHIC] [TIFF OMITTED] T0383.331

[GRAPHIC] [TIFF OMITTED] T0383.332

[GRAPHIC] [TIFF OMITTED] T0383.333

[GRAPHIC] [TIFF OMITTED] T0383.334

[GRAPHIC] [TIFF OMITTED] T0383.335

[GRAPHIC] [TIFF OMITTED] T0383.336

[GRAPHIC] [TIFF OMITTED] T0383.337

[GRAPHIC] [TIFF OMITTED] T0383.338

[GRAPHIC] [TIFF OMITTED] T0383.339

[GRAPHIC] [TIFF OMITTED] T0383.340

[GRAPHIC] [TIFF OMITTED] T0383.341

[GRAPHIC] [TIFF OMITTED] T0383.342

[GRAPHIC] [TIFF OMITTED] T0383.343

[GRAPHIC] [TIFF OMITTED] T0383.344

[GRAPHIC] [TIFF OMITTED] T0383.345

[GRAPHIC] [TIFF OMITTED] T0383.346

[GRAPHIC] [TIFF OMITTED] T0383.347

[GRAPHIC] [TIFF OMITTED] T0383.348

[GRAPHIC] [TIFF OMITTED] T0383.349

[GRAPHIC] [TIFF OMITTED] T0383.350

[GRAPHIC] [TIFF OMITTED] T0383.351

[GRAPHIC] [TIFF OMITTED] T0383.352

[GRAPHIC] [TIFF OMITTED] T0383.353

[GRAPHIC] [TIFF OMITTED] T0383.354

[GRAPHIC] [TIFF OMITTED] T0383.355

[GRAPHIC] [TIFF OMITTED] T0383.356

[GRAPHIC] [TIFF OMITTED] T0383.357

[GRAPHIC] [TIFF OMITTED] T0383.358

[GRAPHIC] [TIFF OMITTED] T0383.359

[GRAPHIC] [TIFF OMITTED] T0383.360

[GRAPHIC] [TIFF OMITTED] T0383.361

[GRAPHIC] [TIFF OMITTED] T0383.362

[GRAPHIC] [TIFF OMITTED] T0383.363

[GRAPHIC] [TIFF OMITTED] T0383.364

[GRAPHIC] [TIFF OMITTED] T0383.365

[GRAPHIC] [TIFF OMITTED] T0383.366

[GRAPHIC] [TIFF OMITTED] T0383.367

[GRAPHIC] [TIFF OMITTED] T0383.368

[GRAPHIC] [TIFF OMITTED] T0383.369

[GRAPHIC] [TIFF OMITTED] T0383.370

[GRAPHIC] [TIFF OMITTED] T0383.371

[GRAPHIC] [TIFF OMITTED] T0383.372

[GRAPHIC] [TIFF OMITTED] T0383.373

[GRAPHIC] [TIFF OMITTED] T0383.374

[GRAPHIC] [TIFF OMITTED] T0383.375

[GRAPHIC] [TIFF OMITTED] T0383.376

[GRAPHIC] [TIFF OMITTED] T0383.377

[GRAPHIC] [TIFF OMITTED] T0383.378

[GRAPHIC] [TIFF OMITTED] T0383.379

[GRAPHIC] [TIFF OMITTED] T0383.380

[GRAPHIC] [TIFF OMITTED] T0383.381

[GRAPHIC] [TIFF OMITTED] T0383.382

[GRAPHIC] [TIFF OMITTED] T0383.383

[GRAPHIC] [TIFF OMITTED] T0383.384

[GRAPHIC] [TIFF OMITTED] T0383.385

[GRAPHIC] [TIFF OMITTED] T0383.386

[GRAPHIC] [TIFF OMITTED] T0383.387

[GRAPHIC] [TIFF OMITTED] T0383.388

[GRAPHIC] [TIFF OMITTED] T0383.389

[GRAPHIC] [TIFF OMITTED] T0383.390

[GRAPHIC] [TIFF OMITTED] T0383.391

[GRAPHIC] [TIFF OMITTED] T0383.392

[GRAPHIC] [TIFF OMITTED] T0383.393

[GRAPHIC] [TIFF OMITTED] T0383.394

[GRAPHIC] [TIFF OMITTED] T0383.395

[GRAPHIC] [TIFF OMITTED] T0383.396

[GRAPHIC] [TIFF OMITTED] T0383.397

[GRAPHIC] [TIFF OMITTED] T0383.398

[GRAPHIC] [TIFF OMITTED] T0383.399

[GRAPHIC] [TIFF OMITTED] T0383.400

[GRAPHIC] [TIFF OMITTED] T0383.401

[GRAPHIC] [TIFF OMITTED] T0383.402

[GRAPHIC] [TIFF OMITTED] T0383.403

[GRAPHIC] [TIFF OMITTED] T0383.404

[GRAPHIC] [TIFF OMITTED] T0383.405

[GRAPHIC] [TIFF OMITTED] T0383.406

[GRAPHIC] [TIFF OMITTED] T0383.407

[GRAPHIC] [TIFF OMITTED] T0383.408

[GRAPHIC] [TIFF OMITTED] T0383.409

[GRAPHIC] [TIFF OMITTED] T0383.816

[GRAPHIC] [TIFF OMITTED] T0383.817

[GRAPHIC] [TIFF OMITTED] T0383.818

[GRAPHIC] [TIFF OMITTED] T0383.819

[GRAPHIC] [TIFF OMITTED] T0383.820

[GRAPHIC] [TIFF OMITTED] T0383.821

[GRAPHIC] [TIFF OMITTED] T0383.822

[GRAPHIC] [TIFF OMITTED] T0383.823

[GRAPHIC] [TIFF OMITTED] T0383.824

[GRAPHIC] [TIFF OMITTED] T0383.825

[GRAPHIC] [TIFF OMITTED] T0383.826

[GRAPHIC] [TIFF OMITTED] T0383.827

[GRAPHIC] [TIFF OMITTED] T0383.828

[GRAPHIC] [TIFF OMITTED] T0383.829

[GRAPHIC] [TIFF OMITTED] T0383.830

[GRAPHIC] [TIFF OMITTED] T0383.831

[GRAPHIC] [TIFF OMITTED] T0383.832

[GRAPHIC] [TIFF OMITTED] T0383.833

[GRAPHIC] [TIFF OMITTED] T0383.834

[GRAPHIC] [TIFF OMITTED] T0383.835

[GRAPHIC] [TIFF OMITTED] T0383.836

[GRAPHIC] [TIFF OMITTED] T0383.837

[GRAPHIC] [TIFF OMITTED] T0383.838

[GRAPHIC] [TIFF OMITTED] T0383.839

[GRAPHIC] [TIFF OMITTED] T0383.840

[GRAPHIC] [TIFF OMITTED] T0383.841

[GRAPHIC] [TIFF OMITTED] T0383.842

[GRAPHIC] [TIFF OMITTED] T0383.843

[GRAPHIC] [TIFF OMITTED] T0383.844

[GRAPHIC] [TIFF OMITTED] T0383.845

[GRAPHIC] [TIFF OMITTED] T0383.873

[GRAPHIC] [TIFF OMITTED] T0383.874

[GRAPHIC] [TIFF OMITTED] T0383.875

[GRAPHIC] [TIFF OMITTED] T0383.876

[GRAPHIC] [TIFF OMITTED] T0383.877

[GRAPHIC] [TIFF OMITTED] T0383.878

[GRAPHIC] [TIFF OMITTED] T0383.879

[GRAPHIC] [TIFF OMITTED] T0383.880

[GRAPHIC] [TIFF OMITTED] T0383.881

[GRAPHIC] [TIFF OMITTED] T0383.882

[GRAPHIC] [TIFF OMITTED] T0383.883

[GRAPHIC] [TIFF OMITTED] T0383.884

[GRAPHIC] [TIFF OMITTED] T0383.885

[GRAPHIC] [TIFF OMITTED] T0383.886

[GRAPHIC] [TIFF OMITTED] T0383.887

[GRAPHIC] [TIFF OMITTED] T0383.888

[GRAPHIC] [TIFF OMITTED] T0383.889

[GRAPHIC] [TIFF OMITTED] T0383.890

[GRAPHIC] [TIFF OMITTED] T0383.891

[GRAPHIC] [TIFF OMITTED] T0383.892

[GRAPHIC] [TIFF OMITTED] T0383.893

[GRAPHIC] [TIFF OMITTED] T0383.894

[GRAPHIC] [TIFF OMITTED] T0383.895

[GRAPHIC] [TIFF OMITTED] T0383.896

[GRAPHIC] [TIFF OMITTED] T0383.897

[GRAPHIC] [TIFF OMITTED] T0383.904

[GRAPHIC] [TIFF OMITTED] T0383.905

[GRAPHIC] [TIFF OMITTED] T0383.906

[GRAPHIC] [TIFF OMITTED] T0383.907

[GRAPHIC] [TIFF OMITTED] T0383.908

[GRAPHIC] [TIFF OMITTED] T0383.909

[GRAPHIC] [TIFF OMITTED] T0383.910

[GRAPHIC] [TIFF OMITTED] T0383.911

[GRAPHIC] [TIFF OMITTED] T0383.912

[GRAPHIC] [TIFF OMITTED] T0383.913

[GRAPHIC] [TIFF OMITTED] T0383.914

[GRAPHIC] [TIFF OMITTED] T0383.915

[GRAPHIC] [TIFF OMITTED] T0383.916

[GRAPHIC] [TIFF OMITTED] T0383.917

[GRAPHIC] [TIFF OMITTED] T0383.918

[GRAPHIC] [TIFF OMITTED] T0383.919

[GRAPHIC] [TIFF OMITTED] T0383.920

[GRAPHIC] [TIFF OMITTED] T0383.921

[GRAPHIC] [TIFF OMITTED] T0383.922

[GRAPHIC] [TIFF OMITTED] T0383.923

[GRAPHIC] [TIFF OMITTED] T0383.924

[GRAPHIC] [TIFF OMITTED] T0383.925

[GRAPHIC] [TIFF OMITTED] T03831.045

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
